                        The Office of Inspector General's report on the RRB's financial statements
OIG REPORT #11-02       begins on page 104 of the Railroad Retirement Board's FY 2010 Performance and
November 15, 2010       Accountability Report.




        RAILROAD RETIREMENT BOARD 



PERFORMANCE AND ACCOUNTABILITY 

           REPORT 





                    FISCAL YEAR 2010 

BLANK PAGE FOR PRINTING PURPOSES
                                           Railroad Retirement Board
                                     Performance and Accountability Report
                                                Fiscal Year 2010



                                                    TABLE OF CONTENTS
                                                                                                                                     PAGE

Message from the Board Members ........................................................................                                  3

Management’s Discussion and Analysis...............................................................                                       7
     Overview of the Railroad Retirement Board ....................................................................                       7
         Mission .....................................................................................................................    7
         Major Program Areas................................................................................................              7
             Railroad Retirement Act ......................................................................................               8
             Railroad Unemployment Insurance Act ...............................................................                          9
         Reporting Components .............................................................................................              10
         RRB Organizational Structure ...................................................................................                10
         Financial Highlights...................................................................................................         13
             Comparison of Net Cost of Operations and Financing Sources ..........................                                       15
             Railroad Retirement Investments at Treasury .....................................................                           19
             National Railroad Retirement Investment Trust ...................................................                           20
     Program, Operations, and Financial Performance and Results ......................................                                   21
     Strategic Goals and Objectives.......................................................................................               22
         Future Plans/Objectives ............................................................................................            32
             Program Improvements ......................................................................................                 32
             Systems and Controls .........................................................................................              34
                 Management Assurances .............................................................................                     35
             Financial Management Systems Strategy ...........................................................                           36
             Summary of Actuarial Forecast ...........................................................................                   36
     Limitations of the Financial Statements ..........................................................................                  37
     American Recovery and Reinvestment Act of 2009 ........................................................                             37
     Worker, Homeownership and Business Assistance Act of 2009 .....................................                                     38

Performance Section – Government Performance and Results Act (GPRA)
 Report ......................................................................................................................... 41




                                                                    I
                                                  TABLE OF CONTENTS
                                                                                                                                 PAGE

Financial Section ..................................................................................................... 63
     Message from the Chief Financial Officer ........................................................................ 63
     Financial Statements........................................................................................................ 64
        Consolidated Balance Sheet ...................................................................................... 64
        Consolidated Statement of Net Cost .......................................................................... 65
        Consolidated Statement of Changes in Net Position ................................................. 66
        Combined Statement of Budgetary Resources .......................................................... 68
        Statement of Social Insurance ................................................................................... 69
     Notes to the Financial Statements ................................................................................... 70
     Required Supplementary Information .............................................................................. 89
        Social Insurance ......................................................................................................... 89
            Program Financing ............................................................................................... 89
            Benefits ................................................................................................................ 89
            Program Finances and Sustainability ................................................................... 90
        Disaggregate of Budgetary Resources ...................................................................... 99
     Auditor’s Report ............................................................................................................... 100

Other Accompanying Information .......................................................................... 111
     Inspector General’s Statement on Management and Performance Challenges ..............                                         111
     Management’s Comments ...............................................................................................         116
     Improper Payments Information Act (IPIA) Reporting Details ..........................................                         119
     Summaries of Financial Statement Audit and Management Assurances ........................                                     124

Appendices .............................................................................................................. 127
     Glossary of Acronyms and Abbreviations ........................................................................ 127
     RRB Board Members, Inspector General, and Executive Committee ............................. 130



RRB’s fiscal year 2010 Performance and Accountability Report is available on the Internet at: www.rrb.gov




                                                                  II
MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK
                           Message from the Board Members

This fiscal year 2010 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of administering
the retirement, disability, and survivor benefit program provided under the Railroad Retirement Act
(RRA) and the unemployment and sickness insurance benefit program provided under the Railroad
Unemployment Insurance Act (RUIA). This report describes our continuing efforts to provide timely
and useful information to RRB managers, the Office of Management and Budget (OMB), the
Congress, and our constituents. We are proud of the agency’s dedicated employees whose
achievements are reflected in this report.

The 75th anniversary of the enactment of the Railroad Retirement Act of 1935 is being observed
during 2010. Part of President Franklin Delano Roosevelt’s New Deal legislation, the Act was
signed into law on August 29, 1935. Established in a time of national crisis, the railroad retirement
system has continued to serve railroad employees and their families through programs affording
protection against the economic hazards of old age, disability, unemployment and sickness. By the
beginning of the 2010 anniversary year, railroad retirement benefits of $281 billion had been paid by
the RRB to 2,000,000 retired employees, 1,100,000 spouses and 2,400,000 survivors;
unemployment and sickness insurance benefits had totaled some $8 billion.

The RRB has a long and distinguished tradition of excellence in serving our customers and
safeguarding the agency’s trust funds. In recent years, we have achieved high levels of accuracy
and timeliness in the benefit programs we administer. In 2010, the RRB is again participating in the
American Customer Satisfaction Index (ACSI) Survey, which will focus on customers’ experiences
with the www.rrb.gov website. We will use the data to better understand our audiences and what
they want from the RRB website. This year, we also implemented the Worker, Homeownership and
Business Assistance Act of 2009 (WHBAA), which extended previous unemployment insurance
payments made under the American Recovery and Reinvestment Act of 2009. WHBAA provided for
up to 65 days of additional extended unemployment benefits under the RUIA. Through
September 30, 2010, we had paid out approximately $19.4 million under the WHBAA program.

We believe the performance and financial data presented in this report are complete and reliable in
accordance with OMB guidance. The adequacy and effectiveness of our management controls and
the compliance of our financial management systems with governmentwide requirements are
delineated in the Systems and Controls part of the Management’s Discussion and Analysis section.
That part also provides the status of the actions we are taking and progress we are making to
correct Office of Inspector General identified material weaknesses in information security and
non-integrated subsystems.

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve. We are
also committed to prudent stewardship over the agency trust funds and the administrative resources
entrusted to us.

                                                                                   Original signed by:


                                                                    Michael S. Schwartz, Chairman
                                                                V. M. Speakman, Jr., Labor Member
                                                             Jerome F. Kever, Management Member

                                                                                   November 5, 2010


                                                -3-
PAGE INTENTIONALLY LEFT BLANK
MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK
                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930’s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930’s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930’s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930’s,
numerous other railroad laws have subsequently been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   -7-
taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930’s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                -8-
Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and the legislation enacted in 2001 allows for Railroad Retirement (RR) Account funds
transferred to the National Railroad Retirement Investment Trust (NRRIT) to be invested in
non-governmental assets, as well as in governmental securities. Funds transferred from the
Social Security Equivalent Benefit (SSEB) Account to the NRRIT are allowed to be invested
only in governmental securities. The legislation also established the NRRIT, whose Board of
seven trustees oversees these investments. The Board of Trustees is comprised of three
members selected by rail labor; three members selected by rail management; and one
independent member selected by a majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2010, the
RRB trust funds realized a net of almost $4.0 billion, representing 43 percent of RRB financing
sources (excluding transfers to/from the NRRIT and the increase in NRRIT net assets), through
the financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II, and vested dual benefits), and appropriations from
general Department of the Treasury (Treasury) revenues provided after 1974 as part of a
phase-out of certain vested dual benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work and sickness insurance benefits to railroad
workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.



                                                 -9-
Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of two administrative funds, three trust funds, two general funds,
one deposit fund, six American Recovery and Reinvestment Act of 2009 (ARRA) funds, and two
Worker, Homeownership and Business Assistance Act of 2009 (WHBAA) funds.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is V. M. Speakman, Jr., and
the Management Member is Jerome F. Kever. The President also appoints an Inspector
General for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the future income and outlays of the
agency’s trust funds and accounts, statisticians and economists to provide vital data, and
attorneys to interpret legislation and represent the RRB in litigation. Internal administration
requires a procurement staff, a budget and accounting staff, quality assurance staff, and
personnel specialists. The Inspector General employs auditors and investigators to detect
waste, fraud, or abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -
                                                                                  U.S. RAILROAD RETIREMENT BOARD

                                                                                                THE BOARD
                                                       OFFICE OF                                                                     CHIEF ACTUARY*
                 OFFICE OF                            INSPECTOR                           Chairman, Michael S. Schwartz
                                                       GENERAL                                                                          BUREAU OF
                   EQUAL                                                                Labor Member, V.M. Speakman, Jr.               THE ACTUARY
                OPPORTUNITY                         Martin J. Dickman
                                                                                       Management Member, Jerome F. Kever               Frank J. Buzzi
               Lynn E. Cousins



                                                                                          EXECUTIVE COMMITTEE

                   MEMBER                                 MEMBER                            SENIOR EXECUTIVE                      MEMBER                      MEMBER
               Kenneth P. Boehne                      Steven A. Bartholow                        OFFICER                    Dorothy A. Isherwood            Terri S. Morgan
                                                                                              Henry M. Valiulis


                CHIEF FINANCIAL                              OFFICE OF                           OFFICE OF                  OFFICE OF                    CHIEF INFORMATION
                    OFFICER                             GENERAL COUNSEL                      ADMINISTRATION                PROGRAMS                           OFFICER
                                                         Steven A. Bartholow                   Henry M. Valiulis        Dorothy A. Isherwood
- 11 -




                  BUREAU OF                                                                                                                                 BUREAU OF
                    FISCAL                                                                    ACQUISITION                                                  INFORMATION
                                                          OFFICE OF                                                          OPERATIONS
                 OPERATIONS                                                                   MANAGEMENT                                                     SERVICES
                                                         LEGISLATIVE                                                         Robert J. Duda
                Kenneth P. Boehne                                                              Paul T. Ahern                                               Terri S. Morgan
                                                           AFFAIRS
                                                       Margaret S. Lindsley
                                                                                             REAL PROPERTY
                                                                                                                             POLICY AND
                                                                                              MANAGEMENT
                                                          BUREAU OF                                                           SYSTEMS
                                                                                                Scott Rush
                                                         HEARINGS AND                                                        Ronald Russo
                                                           APPEALS
                                                           Karl Blank                        PUBLIC AFFAIRS                   RESOURCE
                                                                                               Anita Rogers                 MANAGEMENT
                                                        SECRETARY TO                                                           CENTER
                                                          THE BOARD                                                         Janet M. Hallman
                                                        Beatrice E. Ezerski                     BUREAU OF
                                                                                                  HUMAN                  ASSESSMENT
                                                                                               RESOURCES                 AND TRAINING
                                                                                               Keith B. Earley
                                                                                                                        Catherine A. Leyser
                   The Inspector General reports administratively to the Chairman.
                   The Director of Equal Opportunity reports administratively to the
                   Director of Administration and programmatically to the Board.                                         FIELD SERVICE
                                                                                                                        Martha M. Barringer

         * Non-voting member of the Executive Committee.
                                                                                                                                                               OCTOBER 2010
                                                                          U.S. RAILROAD RETIREMENT BOARD
                             WAS
                                HING
                                                                                    District Office Map
                                    TON

                                                         MONTA                                                                                                                                                                                                                                  MAINE
                           Bellevue                           NA
                                          Spokane

                                                                                                        NORTH DAKOTA
                                                                                                                                    MINNESOTA


                Portland
                                      OREGON                                                                                                           Duluth
                                                                                                                                                                                                                                                                                  V.T.
                                                                                                                            Fargo                                              MICHIGAN
                                                                               Billings                                                                                                                                                                                RK
                                                                                                                                                                                                                                                                     YO
                                                                                                                                                              WISCONSIN                                                                                          W
                                                                                                       SOUTH DAKOTA                                                                                                                                            NE

                                                                          WYOMING                                                               St. Paul                                                                                                                                 N.H.   Boston
                                                                IDAHO                                                                                                                           MICHIGAN
                                                                                                                                                                                                                                                                                           .
                                                                                                                                                                                                                                                                         Albany       MASS
         CAL                                                                                                                                                                                                                                      Buffalo                                   .
            IFOR                                                                                                                                                                                                                                                                      CONN
                NIA
                            NEVA                                                                                                                                                                                                                                                            Westbury
                                DA                                                                                                                                          Milwaukee
                                                                                                                                        IOWA                                                                                                    ANIA           Scranton
                                                                                                                                                                                                             Detroit                        SYLV                             NJ       New York
                                                                                                      NEBRASKA                                                                                                                          PENN
                                                         UTAH                                                                                                                                                                                                                       Newark
                                                                                                                                                                                Chicago                                                                     Harrisburg
                                                                                                                                                                                                               OHIO                                                                 lphia
                                                                                                                                                                                              INDIANA                       Cleveland
                                                                                                                                                                                                                                                                            Philade
                                                                                                                                                                                                                                                 Altoona
                                                                                                                                                                                   Joliet                                                 Pittsburgh               D
                                                                                                                                                Des Moines                                                                                                     YLANBaltimore
            Roseville                                    Salt Lake City       COLORADO                                                                                                                                                                      MAR
                                                                                                                                Omaha                                       ILLINOIS                                                                                        DE

                                                                                                                                           MISSOURI                                           Indianapolis       Cincinnati           WEST
                                                                                                                                                                               Decatur
          Oakland                                                                                                                                                                                                                    VIRGINIA
                                                                                                            KANSAS
                                                                                                                                                                                                                                                    VIRGINIA
- 12 -




                                                                                             Denver
                                                                                                                                                  Kansas City
                                                                                                                                                                                                                                 Huntington
                                                                                                                                                                St. Louis                                                                              Richmond
                                                                                                                                                                                                         Louisville

                                                                                                                                                                                                                                         Roanoke
                                                    ARIZO                                                                                                                                                                                           INA
                                                         NA                                                                                                                                                                                    CAROL
                                                                                                                          Wichita
                                                                                                                                                                                                KENTUCKY                                 NORTH
                                                                            NEW MEXICO
                                                                                                                                                                                                                                        Charlotte
                                                                                                                       OKLAHOMA
                                                                                                        TEXAS                                                                          TENNESSEE   Nashville
                                                                                                                                                    ARKANSAS

                                                                               Albuquerque                                                                                                                                        SOUTH CAROLINA
                           Covina
                                                                                                                                                                                                                 GEORGIA
                                                                                                                                                                                              ALABAMA
                                                                                                                                                                                MISSISSIPPI
                                                                                                                                                             Little Rock
                                                        Mesa                                                                                                                                                           Atlanta
                                                                                                                                                                                               Birmingham


                                                                                                                                                           LOUISIANA
                                                                                                                            Ft. Worth



                                                                                                                                                                                                    FLORIDA                        Jacksonville



                                                                                                                                        Houston
                                                                                                                                                                           New Orleans

                                                                                                                                                                                                                                              Tampa

                           LEGEND

                           District Office




                                                                                                                                                                                                                                                                                                10-10
Financial Highlights

Amounts in the RR Account not needed to pay current benefits and administrative expenses are
transferred to the NRRIT whose Board of seven trustees is empowered to invest NRRIT assets
in non-governmental assets, such as equities and debt, as well as in governmental securities.
Amounts in the SSEB Account not needed to pay current benefits and administrative expenses
are transferred to either the RR Account or the NRRIT. Amounts transferred from the
SSEB Account to the NRRIT may be used only to pay benefits or to purchase obligations that
are backed by the full faith and credit of the United States.

On February 17, 2009, President Obama signed the ARRA. Under the ARRA, the RRB has two
major benefit programs to administer, economic recovery payments, and extended
unemployment insurance benefits. For additional information on the ARRA, see page 37.

On November 6, 2009, President Obama signed the WHBAA. The legislation authorized
payment of extended unemployment insurance benefits to rail workers. For additional
information on WHBAA, see page 38.

Shown on the following page are snapshots of the net position, financing sources, and benefit
payments (before elimination of inter-fund transactions) for the RRB accounts. All dollar
amounts are in millions.




                                             - 13 -
                                  Net Position, Financing Sources, and Benefit Payments
                                                        (In millions)

                                                                                                                 2010              2009

NET POSITION AT SEPTEMBER 30
  Social Security Equivalent Benefit Account                                                                 $      564.9      $      577.6
  Railroad Retirement Account 1/                                                                                 23,981.0          23,399.6
  Railroad Retirement Administration Fund                                                                             3.6               4.2
  Railroad Unemployment Insurance Trust Fund –
    Benefit Payments                                                                                                (25.2)             27.8
    Administrative Expenses                                                                                           8.2               8.7
  Limitation on the Office of Inspector General                                                                        .8               1.3
  Dual Benefits Payments Account                                                                                      8.3               7.2
  Federal Payments to the Railroad Retirement Accounts                                                                 .5                .5

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                        8.9               9.7
      Economic Recovery Payments – Recovery Act                                                                         5.1               5.5
      Administrative Expenses – Recovery Act (no year dollars)                                                            -                 -
      Administrative Expenses – Recovery Act                                                                              -                 -
      Limitation on Administration – Recovery Act (no year dollars)                                                       -                 -
      Limitation on Administration – Recovery Act                                                                        .7                .9

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                                 155.6                    -
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                               -                    -

        Total                                                                                                $24,712.4         $24,043.0

FINANCING SOURCES FOR FISCAL YEAR
   Social Security Equivalent Benefit Account                                                                $ 6,389.4         $ 6,523.0
   Railroad Retirement Account 2/                                                                              5,054.9           2,022.1
   Railroad Retirement Administration Fund                                                                       117.1             113.2
   Railroad Unemployment Insurance Trust Fund –
     Benefit Payments                                                                                               84.2              82.0
     Administrative Expenses                                                                                        (0.5)             (1.3)
   Limitation on the Office of Inspector General                                                                     8.5               8.2
   Dual Benefits Payments Account                                                                                   62.1              69.5
   Federal Payments to the Railroad Retirement Accounts 3/                                                         467.1             321.1

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                         .8           10.3
      Economic Recovery Payments – Recovery Act                                                                          .4          129.5
      Administrative Expenses – Recovery Act (no year dollars)                                                            -             .1
      Administrative Expenses – Recovery Act                                                                              -            1.4
      Limitation on Administration – Recovery Act (no year dollars)                                                       -             .1
      Limitation on Administration – Recovery Act                                                                         -            1.4

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments, (no year dollars)                                  19.4                   -
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                               .8                   -

        Total                                                                                                $12,204.2         $ 9,280.6


 1/     NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above.
 2/     Change in NRRIT-held net assets is included in the Railroad Retirement Account above.
 3/     Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the
        consolidated statements.




                                                                 - 14 -
                                                                                                     2010            2009

BENEFIT PAYMENTS FOR FISCAL YEAR 4/
  Social Security Equivalent Benefit Account                                                        $ 6,260.9      $ 6,241.5
  Railroad Retirement Account                                                                         4,473.1        4,232.8
  Railroad Unemployment Insurance Trust Fund –
   Unemployment Insurance                                                                                84.4          106.0
   Sickness Insurance                                                                                    51.7           48.1
  Dual Benefits Payments Account                                                                         62.1           69.5

     American Recovery and Reinvestment Act of 2009
     Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)             .8          10.3
     Economic Recovery Payments – Recovery Act                                                              .4         129.5

     Worker, Homeownership and Business Assistance Act of 2009
     Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                        19.4                 -

       Total                                                                                        $10,952.8      $10,837.7


4/     Net of recoveries and offsetting collections; excludes SSA benefit payments.


The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

       Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2010 and 2009 was $11,221.5 million and
$11,119.5 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2009 to fiscal year 2010 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2010 and 2009 is shown on the following pages.


                                              NET COST OF OPERATIONS
                                                    (In millions)

                                                                                            Amount of         Percent of
                                                                                             Increase          Increase
                                                           FY 2010            FY 2009      (Decrease)        (Decrease)
  Interest expense – Treasury borrowing                    $ 141.1            $ 160.2             $(19.1)            (11.9)
  Salaries and expenses                                         129.4              122.5             6.9               5.6
  Benefit payments – RRB                                     10,975.8           10,861.2           114.6               1.1
  Other expenses                                                  8.9                9.9              (1)            (10.1)
    Subtotal                                                 11,255.2           11,153.8           101.4               0.9
  Less: Earned revenues                                          33.7               34.3             (.6)             (1.7)
    Net cost of operations                                  $11,221.5          $11,119.5          $ 102                0.9




                                                                - 15 -
                                NET COST OF OPERATIONS (In millions)
                                             FY 2010



                                                                               Benefit Payments
                                                                                   $10,975.8
                                                                                     97.52%




Salaries and
 Expenses
   $129.4                                  Other Expenses
    1.15%                                        $8.9
                                                 0.08%
                  Interest Expense
                       $141.1
                        1.25%

     Totals $11,255.2 million, excluding reimbursements and earned revenues of $33.7 million.



                                NET COST OF OPERATIONS (In millions)
                                             FY 2009



                                                                               Benefit Payments
                                                                                   $10,861.2
                                                                                     97.37%




Salaries and
 Expenses
   $122.5                                  Other Expenses
    1.10%                                        $9.9
                                                 0.09%
                  Interest Expense
                       $160.2
                        1.44%

     Totals $11,153.8 million, excluding reimbursements and earned revenues of $34.3 million.



                                             - 16 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2009 to fiscal
year 2010.


                                              FINANCING SOURCES
                                                  (In millions)

                                                                               AMOUNT            PERCENT
                                                                                 OF                 OF
                                                                              INCREASE          INCREASE
                                                 FY 2010        FY 2009      (DECREASE)        (DECREASE)

Appropriations used                              $    550.5      $ 531.8        $     18.7            3.5

Taxes and other non-exchange revenues:
 Payroll taxes                                       4,648.1      4,710.5             (62.4)         (1.3)
 Interest revenue and other income                      37.2         38.9              (1.7)         (4.4)
 Carriers refunds – principal                           (1.0)        (1.2)              0.2          16.7
 Railroad Unemployment Insurance (RUI)
  revenue                                              98.1          92.8               5.3            5.7
     Subtotal                                     $ 4,782.4      $4,841.0       ($     58.6)          (1.2)

Imputed financing (amount to be provided
 by the Office of Personnel Management
 (OPM) to pay future retirement benefits to
 RRB employees)                                          8.8          8.8               0.0           0.0

Transfers in:
  Financial Interchange, net                       3,964.1        4,003.7            (39.6)           (1.0)
  NRRIT                                            1,989.0        1,553.0            436.0           28.1
     Subtotal                                    $ 5,953.1       $5,556.7       $    396.4             7.1

Other:
 Change in NRRIT net assets                            441.5     (1,975.2)          2,416.7         122.4

 Subtotal                                        $11,736.3      $8,963.1        $2,773.2             30.9

Less: Transfers out to NRRIT                             0.0          0.0               0.0           0.0
  Loss Contingency                                      (0.9)        (5.0)              4.1          82.0
     Subtotal                                           (0.9)        (5.0)              4.1          82.0

 Total                                           $11,735.4      $8,958.1        $2,777.3             31.0




The most significant difference between the RRB’s financial statements for fiscal year 2009 and
fiscal year 2010 was the change in NRRIT net assets. The increase in NRRIT net assets of
$441.5 million is due to market fluctuations during the past year. There is a section on page 20
that describes the NRRIT, and the NRRIT net assets balances for 2009 and 2010 are shown in
the RRB’s Financial Section of this publication.




                                                       - 17 -
                            FINANCING SOURCES (In millions)
                                       FY 2010

               $5,953.1
      6,000


      5,000                                    $4,782.4


      4,000


      3,000


      2,000


      1,000
                               $550.5                                         $441.5
                                                                $8.8
          0
               Transfers   Appropriations   Taxes and Other    Imputed    Change in NRRIT
                  In           Used          Non-Exchange     Financing     Net Assets
                                               Revenues


Total Financing Sources $11,736.3 million, excluding $0.9 million loss contingency.




                            FINANCING SOURCES (In millions)
                                       FY 2009

   6,000.00    $5,556.7
                                               $4,841.0
   5,000.00

   4,000.00

   3,000.00

   2,000.00

   1,000.00                    $531.8
                                                                $8.8
       0.00
               Transfers   Appropriations   Taxes and Other    Imputed    Change in NRRIT
  (1,000.00)      In           Used          Non-Exchange     Financing     Net Assets
                                               Revenues
  (2,000.00)
                                                                             ($1,975.2)
  (3,000.00)


 Total Financing Sources $8,963.1 million, excluding $5 million loss contingency.




                                            - 18 -
   Railroad Retirement Investments at Treasury

The book value of all railroad retirement investments, including accrued interest, increased to
$1,299.9 million as of September 30, 2010, from $1,191.2 million on September 30, 2009
(excludes NRRIT net assets). The graph below reflects the book value of the railroad retirement
investments from September 30, 2006, through September 30, 2010.


                 INVESTMENT BALANCES HELD AT TREASURY (AT BOOK VALUE)
                              AT SEPTEMBER 30, 2006 - 2010

                                 (In millions, excluding NRRIT net assets)



      $1,500.0                                         $1,407.3
      $1,400.0                        $1,323.6                                              $1,299.9
      $1,300.0      $1,203.7                                               $1,191.2
      $1,200.0
      $1,100.0
      $1,000.0
                      2006             2007               2008              2009                2010


The following chart shows the portfolio of the railroad retirement investments as of
September 30, 2010.

             RAILROAD RETIREMENT INVESTMENTS HELD AT TREASURY
                                   AS OF SEPTEMBER 30, 2010

                               (In millions, excluding NRRIT net assets)

                                                                                   RR Account
                                                                                     $506.8
                                                                                      39%




                   SSEB
                  Account
                   $793.1
                    61%


                  AT BOOK VALUE
                     Total $1,299.9




                                                 - 19 -
     Railroad Retirement Account

On September 30, 2010 and 2009, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $506,776,803 and $406,196,122, respectively.
The balance on September 30, 2010, consisted of $505,951,000 in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2010, and $825,803 in
accrued interest. The balance on September 30, 2009, consisted of $405,445,000 in
3.000 percent par value specials (with market value equal to face value) maturing on October 1,
2009, and $751,122 in accrued interest. Par value specials mature on the first working day of
the month following the month of issue and have a yield based on the average yield of
marketable Treasury notes with maturity dates at least 3 years away.

     Social Security Equivalent Benefit Account

On September 30, 2010 and 2009, the book values of the SSEB Account investments, including
accrued interest, totaled $793,129,608 and $784,981,660, respectively. The balance on
September 30, 2010, consisted of $791,857,000 in 3.000 percent par value specials maturing
on October 1, 2010, and $1,272,608 in accrued interest. The balance on September 30, 2009,
consisted of $783,717,000 in 3.000 percent par value specials maturing on October 1, 2009,
and $1,264,660 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal Government and not
subject to Title 31, United States Code (USC). The NRRIT is domiciled in and subject to the
laws of the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the RRA. The RRSIA does not
delegate any authority to the RRB with respect to day-to-day activities of the NRRIT, but the
RRSIA provides that the RRB may bring a civil action to enjoin any act or practice of the NRRIT
that violates the provisions of the RRSIA or to enforce any provision of the RRSIA.




                                                  - 20 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Operations, a Statement of Cash Flows, a Statement on Internal Accounting and
Administrative Control Systems, the independent auditor’s report, and any other information
necessary to inform the Congress about the operations and financial condition of the NRRIT. A
copy of the annual report must also be submitted to the President, the RRB, and the Director of
OMB.

Program, Operations, and Financial Performance and Results

During fiscal year 2010 (ended September 30, 2010), railroad retirement and survivor benefit
payments totaled $10.8 billion, net of recoveries and offsetting collections. Railroad
unemployment and sickness insurance benefit payments totaled $136.1 million in fiscal year
2010, net of recoveries and offsetting collections. During fiscal year 2010, the RRB also paid
benefits on behalf of SSA (for which the RRB is reimbursed) amounting to $1.3 billion to about
116,000 beneficiaries.

In fiscal year 2010, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2010 included:

      Providing payments to 582,000 retirement and survivor beneficiaries.
      Providing payments to 22,000 unemployment insurance beneficiaries.
      Providing payments to 18,000 sickness insurance beneficiaries.
      Processing 30,972 retirement, survivor, and disability applications for benefits and then
       determining eligibility (through May 2010).
      Processing 287,950 applications and claims for unemployment and sickness insurance
       benefits (through May 2010).
      Issuing 257,302 certificates of employee railroad service and compensation (mailed by
       the contractor on June 11, 2010).

During fiscal year 2010, the RRB used 43 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with direct appropriations of $109,073,000 for
administration of the RRB. (A breakdown of administrative expenses by strategic goal is not
available at the time of this report.) Agency performance with respect to the key performance
indicators is covered in the following section. For most performance measures, actual full-year
performance results for fiscal year 2010 were not available at the time this report was published.
For those objectives, we reported part-year performance information for fiscal year 2010, if
available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. We aim to satisfy our customers’
expectations for quality service both in terms of service delivery options and levels and manner
of performance. For fiscal year 2010, we expect that benefit payment accuracy rates will
exceed 99 percent, and we are striving to meet or exceed the timeliness goals by year-end.




                                              - 21 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2010, we expect to meet or exceed our performance goals.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in the processing of retirement and survivor benefits, while embracing
new technology, especially in areas where it can improve customer service and efficiency. We
have also achieved very high scores for customer service in independent assessments of our
operations related to initial railroad retirement applications, unemployment and sickness
insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. Our Annual Performance Budget for
Fiscal Year 2010 reflects two strategic objectives that focus on the specifics of achieving this
goal.

      Pay benefits accurately and timely.
      Provide relevant, timely, and accurate information which is easy to understand.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. Our
performance budget reflects four objectives that direct our focus on this goal.

      Ensure that trust fund assets are projected, collected, recorded and reported
       appropriately.
      Ensure the integrity of benefit programs.
      Ensure effectiveness, efficiency, and security of operations.
      Effectively carry out the responsibilities of the RRB under the RRSIA with respect to the
       activities of the NRRIT.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.



                                               - 22 -
Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. The RRB has implemented comprehensive
administrative procedures to ensure that reported performance information is accurate and
valid. Administrative Circular RRB-2 establishes standards and assigns responsibility for
collecting, documenting, validating, certifying, reporting and retaining information related to the
actual performance data reported for objectives in the RRB’s Annual Performance Budget and
Government Performance and Results Act (GPRA) Report.

The procedures require that reporting managers develop and maintain written procedures for:

      Collecting data related to each objective,
      Testing and validating performance data to ensure accuracy,
      Retaining source documents for future reference, and
      Attesting to the accuracy of performance information reported.

Members of the RRB’s Planning Council review the certified performance data and attestations
for completeness and identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of the RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.

                            __________     __________      __________


The following begins a discussion of our key performance indicators.




                                               - 23 -
Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective I-A-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2010 goal:            99.75%
Our FY 2010 performance: Not available                      Initial Retirement Payment Accuracy

Full-year data will be available in fiscal year            100%
2011.

FY 2009 goal:            99.75%
Our FY 2009 performance: 99.59%                            98%
                                                                  FY 07    FY 08   FY 09    FY 10

We did not meet our goal. However, the               Goal     99.00% 99.50%        99.75%   99.75%
performance goal was set at an approximate           Actual 99.82% 99.75%          99.59%    N/A
target level, and the deviation from that level
is slight. There was no effect on overall program or activity performance.

Automation plays a key role in assuring initial benefit payment accuracy by reducing the number
of erroneous payments. Automation will become more critical in this area as experienced
personnel retire in the coming years.

Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                                  - 24 -
Key performance indicator 2: Unemployment insurance payment accuracy
(Objective I-A-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2010 goal:                99.40%
Our FY 2010 performance: 100%                            Unemployment Insurance Payment
              through the 2nd quarter                                Accuracy
                                                          (FY 10 actual is through 3/31/10)
We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy        100%
by reducing the number of erroneous
payments.                                               98%


FY 2009 goal:            99.25%                         96%
                                                                 FY 07      FY 08      FY 09       FY 10
Our FY 2009 performance: 98.93%
                                                      Goal      98.00%     99.00%     99.25%       99.40%
Data definition: This is the percentage of the        Actual 99.64% 99.71%            98.93%       100.00%
dollar value of unemployment insurance benefit
payments paid correctly as a result of
adjudication actions performed, based on a review of a sample of cases.


Key performance indicator 3: Sickness insurance payment accuracy (Objective I-A-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2010 goal:                99.80%
Our FY 2010 performance: 99.88%                              Sickness Insurance Payment
              through the 2nd quarter                                 Accuracy
                                                              (FY 10 actual is through 3/31/10.)

We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy        100%
by reducing the number of erroneous
                                                        98%
payments.
                                                        96%
FY 2009 goal:            99.80%                                  FY 07      FY 08      FY 09        FY 10
Our FY 2009 performance: 99.70%                       Goal       98.00%    99.70%     99.80%       99.80%
                                                      Actual 100.00%       99.89%     99.70%       99.88%
Data definition: This is the percentage of the
dollar value of sickness insurance benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                             - 25 -
Key performance indicator 4: Timeliness of initial railroad retirement annuity payments,
when advanced filed (Objective I-A-5)

FY 2010 goal:                92.75%
Our FY 2010 performance: 95.46%                             The RRB makes a decision to pay or
              through the 2nd quarter                       deny a railroad retirement employee
                                                            or spouse initial annuity application
We are exceeding our goal. Automation plays a              within 35 days of the annuity beginning
key role in assuring benefit payment timeliness            date, if advanced filed. (FY 10 actual is
                                                                       through 3/31/10.)
for this performance indicator.

FY 2009 goal:            92.75%                            100%
Our FY 2009 performance: 94.86%                             95%

Data definition: This goal is included in the RRB            90%
Customer Service Plan. Prior to fiscal year 2008,            85%
the goal was stated from the customer’s                             FY 07    FY 08   FY 09   FY 10
perspective and attempted to measure timeliness             Goal    92.00% 92.00% 92.75% 92.75%
to the point of delivery by reporting performance           Actual 92.80% 92.40% 94.86% 95.46%
as the percent of retirement age and service
applications for which all RRB processing was
completed within 30 days, allowing 5 days to account for handling by Treasury or the
U.S. Postal Service (USPS). An audit by the RRB’s OIG (05-05, dated May 17, 2005), however,
found technical problems with the data, specifically, the time to voucher the case for payment
was not included in the measure. Since that time, we qualified the performance report to
indicate that, due to system limitations, our tracking did not include all internal processing time,
but only measured to 30 days adjudicative processing time. In its audit, the RRB’s OIG also
found a reporting flaw in our measurement process for third-party payment cases, which
affected 2 out of 150 cases in the sample. For fiscal years before 2009, the performance level
reported is inaccurate for the few cases of this type processed during the reporting period, and
is measured as 30 days to the end of the adjudicative process.

In fiscal year 2008, we reworded the goal to express performance from the RRB’s perspective.
The new goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Beginning with fiscal year 2009, there
is no longer a need to qualify the measure for this objective to refer to “adjudicative processing
days.” The other errors found by the OIG have also been corrected.

Due to the complexity of the system revisions, the system is not to the efficiency level we expect
and the data generated still require some manual adjustment. While we are still reviewing
system data and will continue to do so through fiscal year 2010, we believe that performance
data reported for fiscal year 2009 and later accurately reflect the percentage of applications
processed to the point of payment or denial within 35 days of the annuity beginning date, if
advanced filed.

We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                               - 26 -
Key performance indicator 5: Timeliness of initial railroad retirement annuity payments,
if not advanced filed (Objective I-A-6)

FY 2010 goal:                96.80%
Our FY 2010 performance: 95.80%                             The RRB makes a decision to pay or
              through the 2nd quarter                     deny a retirement employee or spouse
                                                             initial annuity application within 60
We have not yet achieved our goal. We hope                  days of the date the application was
                                                          filed. (FY 10 actual is through 3/31/10.)
to meet or exceed our goal by the end of the
fiscal year.
                                                          100%
Automation plays a key role in assuring benefit            98%
payment timeliness for this performance indicator.
                                                           96%

FY 2009 goal:            96.80%                            94%
Our FY 2009 performance: 97.00%                            92%
                                                                  FY 07    FY 08     FY 09     FY 10
Data definition: This goal is included in the RRB          Goal   95.00% 96.00% 96.80% 96.80%
Customer Service Plan. Prior to fiscal year 2008,
                                                           Actual 96.80% 96.10% 97.00% 95.80%
the goal was stated from the customer’s
perspective and attempted to measure timeliness
to the point of delivery by reporting performance based on the percent of retirement age and
service applications for which all RRB processing was completed within 60 days, allowing
5 days to account for handling by Treasury or USPS. An audit by the RRB’s OIG (05-05, dated
May 17, 2005), however, found technical problems with the data, specifically the time to voucher
the case for payment was not included in the measure. Since that time, we qualified the
performance report to indicate that, due to system limitations, our tracking did not include all
internal processing time, but only measured to 60 days adjudicative processing time. While the
issues described in detail for Key Indicator 4 apply to these non-advanced filed cases as well,
the net impact on actual performance levels was not as significant.

In fiscal year 2008, we reworded the goal to express performance from the RRB’s perspective.
The new goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Beginning with fiscal year 2009, there
is no longer a need to qualify the measure for this objective to refer to “adjudicative processing
days.” The other errors found by the OIG have also been corrected.

Due to the complexity of the system revisions, the system is not to the efficiency level we expect
and the data generated still requires some manual adjustment. While we are still reviewing
system data and will continue to do so through fiscal year 2010, we believe that performance
data reported for fiscal year 2009 and later accurately reflect the percentage of applications
processed to the point of payment or denial within 60 days of the date the application was filed.


We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                              - 27 -
Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-7)
                                                            RRB m akes a decision to pay, deny or
FY 2010 goal:                93.00%                      transfer to SSA an initial annuity application
Our FY 2010 performance: 95.60%                              for a retirem ent survivor not already
              through the 2nd quarter                      receiving a benefit w ithin 60 days of the
                                                             annuity beginning date or date filed,
We are exceeding our goal. Automation                       (w hichever is later). (FY10 is through
                                                                            3/31/10.)
plays a key role in assuring benefit payment
timeliness for this performance indicator.              100%

FY 2009 goal:            94.00%                         90%
Our FY 2009 performance: 94.40%                         80%

Data definition: This goal is included in the          70%
RRB Customer Service Plan. Prior to fiscal
                                                       60%
year 2008, the goal was stated from the                       FY 07    FY 08    FY 09    FY 10
customer’s perspective and attempted to
                                                      Goal   90.00% 94.00% 94.00% 93.00%
measure timeliness to the point of delivery by
reporting performance based on the percent            Actual 93.30% 92.90% 94.40% 95.60%
of applications where all RRB processing was
completed within 60 days, allowing 5 days to account for Treasury or USPS handling. In fiscal
year 2008, we reworded the goal to more precisely measure only RRB internal processing time.
 The indicator was again restated in our final performance budget for fiscal year 2010 to more
accurately describe how timeliness is measured. The new goal is stated in the chart above.




                                               - 28 -
Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-8)

FY 2010 goal:                95.10%
Our FY 2010 performance: 93.70%                             RRB makes a decision to pay, deny or
              through the 2nd quarter                    transfer to SSA an initial annuity application
                                                        for a survivor already receiving benefits as a
We have not yet achieved our goal. We                    spouse within 30 days of the RRB's receipt
hope to meet or achieve our goal by the end                 of first notice of the employee's death.
of the fiscal year.                                             (FY 10 actual is through 3/31/10.)

Automation plays a key role in assuring                100%
benefit payment timeliness for this
performance indicator.                                 95%

                                                       90%
FY 2009 goal:            95.10%
Our FY 2009 performance: 95.40%                        85%

                                                      80%
Data definition: This goal is included in the                FY 07    FY 08     FY 09    FY 10
RRB Customer Service Plan. Prior to fiscal
year 2008, the goal was stated from the             Goal    93.00%   94.00%    95.10%   95.10%
customer’s perspective and attempted to             Actual 94.80%    95.10%    95.40%   93.70%
measure timeliness to the point of delivery by
reporting performance based on the percent
of applications where all RRB processing was completed within 30 days, allowing 5 days to
account for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to more
precisely measure only RRB internal processing time. The indicator was again restated in our
final performance budget for fiscal year 2010 to more accurately describe how timeliness is
measured. The new goal is stated in the chart above.




                                              - 29 -
Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-12)

FY 2010 goal:                99.80%
Our FY 2010 performance: 99.90%                             RRB certifies a payment or releases a
              through the 2nd quarter                         letter of denial of UI or SI benefits
                                                             within 10 days of the date the RRB
We are meeting our goal. Automation plays a key                       receives the claim.
role in assuring benefit payment timeliness for this           (FY 10 actual is through 3/31/10.)
performance indicator.
                                                           100%
FY 2009 goal:            99.80%
Our FY 2009 performance: 99.80%                            100%

                                                           99%
Data definition: This goal is included in the RRB
Customer Service Plan. Prior to fiscal year 2008,          99%
the goal was stated from the customer’s                           FY 07  FY 08 FY 09    FY 10
perspective and attempted to measure timeliness to       Goal    99.00% 99.70% 99.80% 99.80%
the point of delivery by reporting performance
                                                         Actual 99.70% 99.70% 99.80% 99.90%
based on the percent of applications where all RRB
processing was completed within 10 days, allowing
5 days to account for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to
more precisely measure only RRB internal processing time. The new goal is stated in the chart
above.

Key performance indicator 9: Timeliness of disability decisions (Objective I-A-13)

FY 2010 goal:                70.00%
Our FY 2010 performance: 67.90%                            The RRB makes a decision to pay or
              through the 2nd quarter                     deny a benefit for a disabled applicant
                                                           or family member within 100 days of
                                                              the date the application is filed.
We are not yet achieving our goal. We are
                                                             (FY 10 actual is through 3/31/10.)
monitoring closely our monthly performance
statistics in this area, and are hoping for a higher
percentage by the end of the fiscal year. Actions        100%

to improve performance include expanded efforts
                                                          80%
to identify and monitor aging cases, reallocation
of initial unit work to claims examiners in the post      60%
unit, and use of limited overtime.
                                                          40%
                                                                  FY 07    FY 08    FY 09    FY 10
FY 2009 goal:            70.00%
Our FY 2009 performance: 62.50%                          Goal     63.00%   68.00%   70.00%   70.00%
                                                         Actual   69.60%   70.40%   62.50%   67.90%
Data Definition: This goal is included in the
RRB Customer Service Plan. Prior to fiscal year
2008, the goal was stated from the customer’s perspective and attempted to measure timeliness
to the point of delivery by reporting performance based on the percent of applications where all
RRB processing was completed within 100 days, allowing 5 days to account for Treasury or
USPS handling. In fiscal year 2008, we reworded the goal to more precisely measure only RRB
internal processing time. The new goal is stated in the chart above.



                                                - 30 -
Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-1)

FY 2010 goal:            $5.48 : $1
Our FY 2010 performance: Not available                      Achieve a return of at least $3.60 for
                                                           each dollar spent on program integrity
FY 2010 data will be available in FY 2011.                               activities.


FY 2009 goal:            $5.36 : $1                       $8.00
Our FY 2009 performance: $6.44 : $1                       $6.00
                                                          $4.00
We exceeded our goal. Our fiscal year 2009
                                                          $2.00
goal was to achieve a return of $5.36 for each
dollar spent on program integrity activities. We          $0.00
                                                                   FY 07   FY 08     FY 09    FY 10
achieved a rate of return of $6.44 for each dollar
spent.                                                    Goal     $3.80   $5.00     $5.36    $5.48
                                                          Actual   $5.48   $5.76     $6.44     N/A
As part of our fiduciary responsibilities to the rail
community, we must ensure that the correct benefit amounts are being paid to the right people.
We match our benefit payments against SSA’s earnings and benefits database, the Centers for
Medicare & Medicaid Services’ (CMS) utilization and death records, OPM’s benefit records, and
State wage reports, usually via computer tapes, and administer other benefit monitoring
programs to identify and prevent erroneous payments. We also refer some cases to the RRB’s
OIG for investigation. After investigation, the OIG may pursue more aggressive collection
methods, which include civil and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings, to the labor
dollars spent.




                                               - 31 -
Future Plans/Objectives

        Program Improvements

         Medicare Modernization Act (MMA) The Medicare Prescription Drug, Improvement and
          Modernization Act of 2003, otherwise known as the Medicare Modernization Act (MMA),
          added a prescription drug benefit (Part D) to the Medicare program effective January
          2006. The MMA provides beneficiaries the option to pay Parts C (Medicare Advantage
          plan) and D premiums directly to their plans or to have premiums withheld from benefits
          paid by SSA, OPM, or RRB.

          The RRB renewed working with CMS in June 2008 to implement Medicare Parts C and D
          premium withholding from RRB benefits. Further progress has been made over the past
          year and we are currently making plans for interagency testing. Along with CMS, we have
          established a target implementation date of December 2010.

         Patient Protection and Affordable Care Act The Patient Protection and Affordable
          Care Act of 2010 provides for an Income-Related Monthly Adjustment Amount (IRMAA) to
          be added to the Medicare prescription drug plan (Part D) premiums paid by high-income
          beneficiaries beginning in January 2011. This provision allows for the collection of Part D
          IRMAA through withholding from railroad retirement benefit checks or through direct
          billing. We plan to implement Part D IRMAA collection in January 2011 through direct
          billing, utilizing the existing Program Accounts Receivable system. Work will then follow
          with the implementation of premium withholding from railroad retirement benefit checks.
          This work is scheduled to be completed by January 2012.

         Nationwide Toll-Free Service In fiscal year 2009, the agency successfully implemented
          a national toll-free telephone service based on a contract awarded through General
          Services Administration–Networx Universal to Qwest Government Services, Inc. The
          features include a single nationwide toll-free number, automatic distribution of customer
          calls, interactive voice response (IVR) functionality, an upgrade of the existing data
          network, and implementation of Voice over Internet Protocol (VoIP) telephone service at
          all RRB field offices. The toll-free number provides a single access point to claims
          representatives in the agency’s field service offices and to IVR services. Requirements
          are being developed for a system enhancement which would provide the ability to create
          “Special Announcement” messages in the IVR Main Menu. The Special Announcement
          messages are intended to address important legislative or procedural changes as they
          occur which are likely to generate increased numbers of RRB customer calls. The RRB
          will be developing customized reports of both real-time and historical call data collected
          from the toll-free system. These reports are intended to be used to identify customer
          usage trends and ensure management decisions are being made which provide better
          overall telephone service to all RRB customers.

         Internet Unemployment and Sickness Insurance Benefit Services The RRB has had
          applications and claims for unemployment insurance benefits available online at
          www.rrb.gov since 2004. In 2005, the RRB modified the system to fully automate the
          processing of unemployment insurance benefit claims that pass mechanical screening for
          eligibility. In 2005, the RRB also added a service enabling unemployment and sickness
          insurance beneficiaries to view their account statements online. The account statement
          lists recent forms filed and unemployment and sickness insurance benefit payments. In



                                                  - 32 -
    early fiscal year 2011, the RRB plans to implement a process to allow beneficiaries to
    submit online biweekly claims for sickness insurance benefits. To increase efficiency, in
    calendar year 2011, we will implement an automated eligibility screening process so that
    those claims that pass will be automatically forwarded to employers for prepayment
    verification.

   Employer Reporting System (ERS) – Internet Site The ERS Internet-based version of
    Form BA-3, Annual Report of Service and Compensation, is scheduled to begin in fiscal
    year 2011 after completion of a rewrite of the existing ERS software currently underway.
    When completed, this stage of the project will yield seven reporting services and replace
    several post-reporting requests for information from employers. In that year, we also plan
    to begin work to automate access to RUIA contribution and tax notices resulting in two
    additional services.

    Starting in fiscal year 2012, we plan to develop an automated referral process in ERS to
    notify employers of errors or the need for additional information and provide a means for
    correcting the data. We will also develop online processes for employers to respond
    electronically to requests for information which may be needed to process some initial
    annuity applications. These include requests for verification of last date on the payroll,
    and requests for service information needed for eligibility (G-88a.1 and G-88a.2) and for
    the payment of supplemental annuities (G-88p). When implemented, these will add four
    services to the system. Replacing these paper-based processes will improve customer
    service by speeding up initial annuity processing, and enhance stewardship by securing
    and better protecting personally identifiable information.




                                            - 33 -
   Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its program, information services, administrative, and financial operations, the
RRB has divided these operations functionally into 44 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2010, responsible officials performed in-depth reviews of 10 assessable units, assessed all 44,
and certified 42.

The RRB reported a material weakness relating to deficiencies in Information Technology
Security in fiscal year 2002. At that time, the critical elements attributed to the weakness were
inadequate security awareness, training and education of individuals responsible for
security-related activities, and logical access controls. Those issues have been resolved to an
acceptable level of compliance. In their 2009 review, the OIG stated that the RRB’s security
awareness training results showed that the agency was generally compliant with the Federal
Information Security Management Act (FISMA) provision to provide training to all agency
employees and contractors. In fiscal year 2010, the OIG decided that substantial progress had
been made in the area of access controls and it would no longer be cited as a deficiency.
However, the OIG concluded that there is still an Information Security material weakness
because of a lack of substantial progress in the improvement of the internal control environment
regarding the certification and accreditation process.

In fiscal year 2009, the OIG identified Non-Integrated Subsystems as a material weakness. The
agency developed an inventory of non-integrated subsystems and is reviewing them for
possible new reconciliations between them and the general ledger.

The agency is committed to resolving these reported weaknesses and will closely monitor
progress during fiscal year 2011.




                                              - 34 -
                                   Management Assurances

The Railroad Retirement Board states and assures that to the best of our knowledge:

1. In accordance with OMB Circular No. A-123, Section VI (B), we are issuing a qualified statement
   of assurance considering the OIG-identified material weaknesses indicated under paragraph (4).
   Except as indicated under (4), the system of internal control of this agency is functioning and
   provides reasonable assurance as to the: efficiency and effectiveness of programs and
   operations; reliability of financial and performance information; and compliance with laws and
   regulations. These controls satisfy the requirements of the Federal Managers’ Financial Integrity
   Act (FMFIA) §2.

2. The financial management systems of this agency maintain accountability for assets and provide
   reasonable assurance that obligations and costs are in compliance with applicable law, and that
   performance data and proprietary and budgetary accounting transactions applicable to the
   agency are properly recorded and accounted for to permit the timely preparation of accounts and
   reliable performance information. The financial management systems at this agency satisfy the
   requirements of the FMFIA §4.

3. The financial management systems of this agency provide the agency with reliable, timely,
   complete, and consistent performance and other financial information to make decisions and
   efficiently operate and evaluate programs and substantially satisfy the requirements of the GPRA
   and OMB Circular No. A-11.

4. The RRB’s Inspector General, in his auditor’s report, identifies Information Security and
   Non-Integrated Subsystems as material weaknesses.


                       Description of OIG-Identified Material Weaknesses

1. During fiscal year 2010, the OIG evaluated the RRB’s information security program pursuant to
   the provisions of FISMA. OIG auditors concluded that substantial progress has been made in
   the area of access controls and, while some improvement is still needed, access controls will no
   longer be cited as a deficiency. They concluded, however, that no evidence exists of substantial
   progress in the improvement of the internal control environment regarding the certification and
   accreditation process, which includes risk assessments and test and evaluation of security
   controls.

   In fiscal year 2011, the plan is to focus on ensuring that the RRB’s review process for contractor
   deliverables received during both certification and accreditation and continuous monitoring
   activities for the agency’s general support system and three major applications identify complete
   and accurate information, consider all baseline controls as part of the security assessment, and
   incorporate all identified weaknesses in the Plan of Action and Milestones (POA&M) for remedial
   action.

2. The OIG also identified Non-Integrated Subsystems as a material weakness. The agency is
   working on implementing an enhanced reconciliation process.

                                                                                  Original signed by:


                                                                    Michael S. Schwartz, Chairman
                                                                V. M. Speakman, Jr., Labor Member
                                                             Jerome F. Kever, Management Member


                                                - 35 -
   Financial Management Systems Strategy

The RRB has continually upgraded its financial system structure to meet evolving standards and
requirements. Our strategy is, and has been, to continually upgrade and improve the financial
management systems structure. The RRB is committed to an integrated and automated
financial management system that focuses on the agency’s mission and accountability. Our
goals are to (1) achieve compliance with applicable laws, regulations, standards, and
requirements; (2) identify requirements for financial systems support; (3) improve and facilitate
user access to financial information; (4) reduce redundant data entry, storage, and processing;
and (5) improve security, control, and disaster recovery capability for information processed and
stored on mainframe, local area network, and personal computer systems.

The financial management system of the RRB is considered a major application for certification
and accreditation purposes. Other major applications include the financial interchange and the
payment of benefits under the RUIA and RRA.

In the financial management system area, core financial management functions are centralized
in a mainframe-based system (the Federal Financial System (FFS)) which continues to be
under a maintenance contract between the RRB and CGI. FFS met the Core Financial System
Requirements that were established by the former Joint Financial Management Improvement
Program. The last major upgrade to the system by the contractor was in 1999 to make the
system year 2000 compliant. Since then, the RRB has relied on its own administrative and
information technology (IT) staff to ensure that the RRB’s core financial system remains able to
meet current and future requirements.

During fiscal year 2010, the RRB awarded a contract to KPMG LLP to conduct an assessment
of the RRB’s core financial management system (FFS) to determine whether performance
gap(s) exist or can be anticipated between its overall financial management strategy and its
current financial solution. The assessment will assist RRB management in planning a timeline
for modernizing its financial management system.

   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2010, under our intermediate employment
assumption. The Required Supplementary Information presents sensitivity analyses showing
the impact of changes in employment and investment return assumptions. Although under our
intermediate assumption no cash flow problems arise over the period 2010-2084, the sensitivity
analyses show that, under the current financing structure, actual levels of railroad employment
and investment return over the coming years will determine whether additional corrective action
is necessary.

Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2010-2020. The results
indicate that the RUI Account will be solvent during the 11-year projection period except for
small, short-term cash-flow problems in fiscal years 2010 and 2011 under all three employment
assumptions. Full repayment of the loans is expected by the end of fiscal year 2012.




                                              - 36 -
Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 USC 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.

American Recovery and Reinvestment Act of 2009

Under the ARRA, the RRB has two major benefit programs to administer. These are:

    Economic Recovery Payments (ERP). This program, authorized by Section 2201 of the
     ARRA, provides for one-time payments of $250 to eligible adult beneficiaries under the
     RRA. The RRB paid $128,718,500 to 514,874 individuals in late May 2009. We are
     planning to pay additional people through 6 quarterly catch-up runs scheduled through
     the end of 2010. As of June 14, 2010, we have had 4 catch-up runs, in which
     $1,323,000 was paid to an additional 5,292 individuals. The 2 remaining catch-up runs
     are scheduled for September and December 2010.

       In accordance with guidance from OMB, we have conducted a risk assessment of this
       program to ensure that funds are being awarded and distributed as authorized by law
       and that risks of waste, fraud and abuse are mitigated through reasonable and effective
       management controls.

       The results of the risk assessment indicated that the risks associated with the ERP
       program are low. This is primarily due to the following factors:

           we are able to use many previously existing, tested and reliable systems to assist in
            making these payments;
           we have experienced staff in place who are familiar with claims adjudication;
           the benefit to be paid is a standard, fixed amount for all beneficiaries; and
           we are working with other agencies who also have experienced staff and existing
            systems in place to assist with the overall program.

    Extended Unemployment Benefits. This program, authorized by Section 2006 of the
     ARRA, provided for up to 13 weeks of additional extended unemployment benefits to rail
     employees who had already exhausted their unemployment benefits under the RUIA.
     An appropriation of $20 million is available to fund this program. The RRB began
     making payments and mailing claims for these special extended unemployment benefits
     on June 30, 2009. As of May 2010, claims and payments of unemployment benefits
     under ARRA were ending and the RRB had paid out over $11 million.



                                               - 37 -
       Because the Extended Unemployment Benefits program is directly related to the regular
       unemployment insurance program, it will be assessed as part of our normal quality
       assurance process for the RUIA program, which will be conducted in fiscal year 2010.

For more detailed information on the RRB’s ARRA programs, see
http://www.rrb.gov/recovery/default.asp.

Worker, Homeownership and Business Assistance Act (WHBAA) of 2009

In November 2009, the President signed the WHBAA which extended the previous ARRA
provisions. WHBAA provided for the payment of extended unemployment benefits to anyone
who claimed unemployment benefits during the period July 1, 2008 through June 30, 2010, thus
increasing the pool of eligible recipients. WHBAA allowed for the same number of days of
extended benefits (65 days) and also included an additional appropriation of $175 million. The
RRB began making payments under WHBAA on November 6, 2009 and has paid approximately
$19.4 million of these extended benefits through September 30, 2010. The latest date that a
WHBAA extended benefit period can begin is December 31, 2010.




                                            - 38 -
            PERFORMANCE SECTION –

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
                  REPORT
PAGE INTENTIONALLY LEFT BLANK
Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives from the RRB's
Annual Performance Budget for Fiscal Year 2010. The indicators we developed support our
mission and communicate our intentions to meet challenges and seek opportunities for greater
efficiency, effectiveness, and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality, and
customer satisfaction. In addition, the annual performance budget is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors,
and monitored on an agency-wide basis. We have also implemented an initiative to conduct
validation studies on selected indicators, and developed an administrative circular regarding
documentation, validation and retention of performance data.

Automation and e-Government initiatives

Over the last several years, the RRB has implemented significant automation initiatives and
other improvements. Because of these accomplishments, the RRB is able to operate with
reduced resources and continue to streamline its operations with the assistance of information
technology. We believe that significant new investments in information technology and further
management improvements will help us to meet or exceed our customer service goals
efficiently.

In 2009, the RRB completed its nationwide deployment of a document imaging system. This
system makes documents received at any office of the RRB rapidly available to all offices to
support customer service and expedite the benefit award process. The imaging system
complements the nationwide toll-free telephone service completed in 2009, so that any RRB
customer service representative receiving a call can access documents needed to assist the
customer.

Preparations continued for the launch, in early fiscal year 2011, of the RRB’s newest online
service, sickness insurance benefit claims under the RUIA. This new service will enable
beneficiaries to submit their biweekly claims over the Internet, providing safety and convenience
while expediting payments. (The RRB processed over 137,000 claims for sickness insurance
benefits in the benefit year ending June 30, 2009.) The RRB will then develop the means to
mechanically screen the claims submitted online to expedite prepayment verification with
employers for those claims that do not require further investigation. This enhancement will be
completed in calendar year 2011.

The RRB is developing plans to automate and reengineer major phases of its program integrity
matching program with the States to detect improper claims for sickness and unemployment
insurance benefits. When this project is completed in fiscal year 2011, it will streamline control
of casework, reduce paper and mailing costs and better protect personally identifiable
information.




                                              - 41 -
In 2009, we completed improvements to the System Processing Excess Earnings Data
(SPEED), which allow users to enter any annuitant’s earnings information online, and store the
information in a database. SPEED development is a multi-phased project; Phases 1 through 4
are currently in production, and current plans are to complete Phase 5 in early calendar year
2011. The system allows the RRB to adjust annuity payments for earnings on a timely basis,
which minimizes potential underpayments or overpayments that may result from changes in
earnings. Future improvements are also planned to automatically record and adjust the annuity
as a result of ongoing changes in the beneficiary’s working status and earnings.

Work continued during fiscal year 2010 on an enhanced automated retirement payment system
which will replace the current legacy system that processes retirement applications. The
enhanced process will improve the accuracy and efficiency of retirement initial claims, as it will
automatically interface with SSA’s benefit payment system to provide real-time offset data. The
new system will also allow for the payment of such application types as divorced spouse
annuitants, which previously could not be processed automatically. The target for completion of
the enhanced system is early calendar year 2011. Future enhancements include the
development of a system interface to ensure the accurate use of military service in the
calculation of benefits.

Work began during fiscal year 2009 on an initiative to convert an outdated dBase overpayment
recovery correspondence application to automatically interface with other online and mainframe
applications. The streamlined process will provide for online data retrieval of pertinent
information that was previously entered manually. We also plan to create a letter writing module
which will improve the timeliness and accuracy of the overpayment process. This initiative is
targeted for completion in early calendar year 2011.

Completion of the online pre-payment and post-payment verification notices (Forms ID-4K and
ID-4E) in fiscal year 2009 was a great success. Through June 2010, we had posted over
63,000 ID-4K notices and 53,000 ID-4E notices on this system. Without the new system, these
notices, which contain personally identifiable information (PII), would have been printed and
mailed to the rail employers. Thus, the system has saved costs, as well as improved protection
of PII. As of June 2010, the system served over 100 employers, with an additional 40
companies awaiting approval for access. We will continue to encourage all employers to take
advantage of the secure benefits of this automated system.

In fiscal year 2010, we are working to convert, from SAS to ASP.Net programming, three
existing SAS-based Employer Reporting System forms: BA-4, Report of Creditable
Compensation Adjustments; BA-6a, Address Report; and GL-129, Request for Verification of
Service and Compensation. Although the conversion will not provide any additional services, it
will establish the programming platform that will be used in the future.

The RRB continues to expand its web-based training facility during fiscal year 2010 in order to
provide brief presentations to the public and to rail employers on www.rrb.gov, as well as
provide training for our employees. Through June 2010, there were 26 presentations available
for viewing on topics of interest to those applying for benefits, filing reports, or anticipating
retirement, as well as to rail employers filing reports. In fiscal year 2010, we are in the process
of upgrading our equipment and recording software, and are developing plans for constructing a
recording studio specifically designed for this purpose. These upgrades will provide for more
dynamic presentations to both our internal and external customers.




                                              - 42 -
In fiscal year 2010, the RRB is again participating in the American Customer Satisfaction Index
(ACSI) Survey. The RRB has initiated a survey of visitors to our agency website to better
understand our audiences and what they want from the RRB website. We are working with our
Federal Consulting Group partners and Foresee Results, a company that specializes in web
survey analytics, to coordinate the survey. The survey began in July and will be conducted over
a 12-month period with quarterly reports on findings and recommended adjustments for
improved client satisfaction. This initiative is our “Flagship Initiative” in our e-Government Plan.

Succession planning

The agency continues to make good progress on workforce and succession planning. We have
updated our workforce planning documents to address our staffing levels and projected attrition.
The average length of service for RRB employees is 23.9 years, which reflects the criticality of
implementing our succession plans.

To ensure a smooth transition, we conducted initial training classes in fiscal year 2010 for both
retirement and survivor claims examiners. We also began a training class for new claims
examiners in the unemployment and sickness insurance program in January 2010, and are
planning a new class for Medicare claims examiners to begin in August 2010. We have also
identified staffing needs for contact representatives and positions in the information technology
area.

Systems security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services.

To ensure mission continuity, plans and procedures exist to maintain continuity of operations
after a calamity for information systems that support the operations and assets of the RRB. The
RRB’s Continuity of Operations plan consists of a number of components, including an
Occupant Emergency Plan, a Business Continuity Plan, a Crisis Communication Plan, and
technically specific plans for mainframe, local area network (LAN), data communications, and
desktop recovery. The agency regularly conducts semi-annual off-site disaster recovery
exercises. System programmers restore the systems and applications of the agency from
back-ups retrieved from an alternate data storage facility. Program libraries are re-created and
production databases established. Finally, business analysts verify that the systems recovered
correctly.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. We have a full training program that combines a security
awareness presentation with additional role-based training appropriate to the RRB’s information
technology environment. Every employee and contractor with computer network access
participates in this annual event. Individuals who do not use a computer receive physical
security awareness information. In addition to the awareness presentation, computer analysts,


                                               - 43 -
software developers and network/system engineers also receive specialized technical education
necessary to maintain their skills and enhance proficiency. The formal awareness-training
program is supplemented by a weekly Security News feature story, prominently headlined on
the Intranet’s home page, reminding people to protect their computers and information
throughout the year. Every year, the RRB awareness program has been able to report
exemplary levels of participation. As of mid-July, the 2010 awareness program had reached
95 percent compliance, and full compliance was expected by the end of the month.

Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software and intrusion detection systems to prevent viruses, worms, spam
and malicious content from infiltrating the network, as well as to ensure that critical data and
sensitive information are not compromised. To buttress these proactive threat management
resources in the event of a successful malware attack, the agency has implemented a robust
incident response capability. Utilizing the capabilities of a special forensic analysis workstation,
the RRB Computer Emergency Response Team has the ability to conduct forensic collection
and analysis of electronic evidence from almost any type of digital media in use today. The
RRB has also established an Agency Core Response Group to determine if there is a
reasonable expectation that an incident may be a data breach with the potential for identity
theft, and notifies the Board Members who will make the final decisions regarding breach
notification.

The RRB continued to strengthen its security posture by addressing access-control audit
recommendations. The RRB completed migrating all LAN-based programs to newer computer
servers with upgraded operating systems. Network engineers redesigned the architecture for
the Active Directory, an operating system database that controls the resources, services and
functions on the network domain, to improve LAN security. Also, owners of all LAN applications
re-examined access rights to ensure only appropriate users have specific privileges.

Another access-control requirement is the OMB Federal Desktop Core Configuration directive to
limit the granting of workstation administrative rights. The project to accomplish this began with
test implementations of operating system settings and was first expanded to a cross-section of
agency workstations. Conversion of all workstations was scheduled for completion by the end
of fiscal year 2010.

Certification and Accreditation are important activities integral to the information security
programs of Federal agencies. Performing certification and accreditation helps provide an
understanding of the risks and other factors that could adversely affect agency missions. In
fiscal year 2010, contractual services are being utilized for certification and accreditation of the
agency’s consolidated general support system and continuous monitoring of the agency’s other
systems. Achievement of accreditation for all general support systems and major applications,
together with the initiation of the periodic control assessment process, positions the RRB in full
compliance with a major provision of FISMA, a fiscal responsibility law holding agencies to a
high degree of responsibility and accountability for the information resources they manage.




                                               - 44 -
                                      Program Evaluations


   Program Evaluation                               Results in Fiscal Year 2010

                             See “Systems and Controls” in the “Management’s Discussion and
FMFIA reports
                             Analysis” section.

Annual actuarial report      The report, which was completed in June 2010, addresses the 25-year
required by the Railroad     period 2010 through 2034. It indicates that cash flow problems arise
Retirement Act of 1974 and   only under the most pessimistic employment assumption, and not until
the Railroad Retirement      2033. The report did not include any recommendations for financing
Solvency Act of 1983         changes.

Railroad Unemployment        The report, which was released in June 2010, included projections under
Insurance System, annual     three different employment assumptions. The projections indicate that
report required by Section   experience-based contribution rates will respond to fluctuating
7105 of the Technical and    employment and unemployment levels and, except for some short-term
Miscellaneous Revenue Act    borrowing, will maintain fund solvency. The report did not include any
of 1988                      recommendations for financing changes at this time.

                             The RRB continuously monitors the timeliness and accuracy of our
Customer service             performance in managing program workloads. These results are
performance reports          reflected in the performance objectives shown in the chart on the
                             following pages, and published on our website at www.rrb.gov.

                             The RRB’s program integrity report for fiscal year 2009, released in
                             November 2009, showed that program integrity activities resulted in the
Program integrity report     establishment of about $14.9 million in recoverables, recovery of
                             $10.9 million, benefit savings of $1.8 million, and referral of 70 cases to
                             the OIG.


                             RRA adjudicative and payment accuracy is measured in regular
                             diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews
                             RRB’s Assessment and Training (A&T) component. A&T also evaluates
and special studies
                             policies and processes through special studies, as needed. A&T reports
                             to the Director of Programs.


                             Advisory doctors, representing the rail industry (labor and management),
                             are authorized by law to review agency medical decisions. An audit was
Occupational disability      done in 2000; another audit was completed in 2008. In addition,
reviews                      consulting physicians from Consultative Examinations, Ltd. perform a
                             quarterly quality review of disability documentation to ensure it is
                             adequate to support medical decisions.

                             See “Inspector General’s Statement on Management and Performance
RRB OIG audits               Challenges” and “Management’s Comments” in the “Other
                             Accompanying Information” section.




                                                - 45 -
    Program Evaluation                             Results in Fiscal Year 2010
                            Results of performance budget monitoring are shown in the chart of
                            performance objectives on the following pages. Actual performance
 Performance budget
                            data are reviewed, validated and certified prior to inclusion in this report.
 monitoring
                            Validation and certification processes are documented as part of the
                            RRB’s management control review process.


                            See performance goals II-C-2, II-C-3, II-C-4 and II-C-12 in the chart of
                            performance objectives on the following pages. All of the RRB’s general
 Computer security and
                            support systems and all major applications are fully certified and
 privacy assessment
                            accredited in compliance with FISMA, OMB directives and National
                            Institute of Standards and Technology guidance.

 Electronic government
                            See pages 41 and 42 of this section.
 (e-Gov) activities

 Improper payment           See “Improper Payments Information Act (IPIA)” in the “Other
 evaluation                 Accompanying Information” section.



The next page begins a consolidated presentation of our actual performance in fiscal year 2007
through March 31, 2010 (except as noted), followed by a discussion of our unmet performance
goals and objectives for fiscal year 2009. At the time this report was prepared, we had
incomplete information on our fiscal year 2010 performance. The discussion of any unmet fiscal
year 2010 performance goals and indicators will be presented in next year’s report. This
performance report was prepared by RRB employees.




                                               - 46 -
         RAILROAD RETIREMENT BOARD
                                                                 2007 Actual       2008 Actual       2009 Actual      2010 Projected     2010 Actual
         FY 2010 ANNUAL                                                      1/                1/                1/                1/                1/
                                                                (At $103.7m)      (At $101.9m)      (At $105.5m)      (At $109.1m)      (At $109.1m)
         PERFORMANCE REPORT

         Strategic Goal I: Provide Excellent Customer Service

         Performance Goal I-A: Pay benefits accurately and timely.

         I-A-1. Achieve a railroad       a) Initial recurring
         retirement benefit                       payments:         99.82%            99.75%            99.59%            99.75%        Data not available
         payment accuracy rate 2/
         of at least 99%.
         (Measure: % accuracy              b) Sample post
         rate)                         recurring payments:           100%             99.97%             100%            Deferred 3/        Deferred


         I-A-2. Achieve a railroad
         unemployment/sickness           a) Unemployment:           99.64%            99.71%            98.93%            99.40%              100%
         insurance benefit payment
         accuracy rate 2/ of at
- 47 -




         least 99%.
         (Measure: % accuracy rate)            b) Sickness:          100%             99.89%            99.70%            99.80%             99.88%


         I-A-3. Achieve a railroad                 a) Initial       94.9%             96.1%             96.1%             94.00%               N/A
         retirement case accuracy                   cases:
         rate 2/ of at least 94%.
         (Measure: % of case accuracy)
                                                   b) Post          98.7%             96.8%             99.3%            Deferred 3/        Deferred
                                                    cases:

         I-A-4. Achieve a railroad     a) Unemployment:             98.01%            98.55%            97.04%            97.50%              100%
         unemployment/sickness
         insurance case accuracy
         rate 2/ of at least 98%.            b) Sickness:
                                                                     100%             99.03%            97.52%            99.00%             98.99%
         (Measure: % of case accuracy)

         I-A-5. Railroad retirement employee or spouse
         receives initial annuity payment, or a decision,
         within 35 days of annuity beginning date, if               92.8%
         advanced filed. (Measure: % ≤ 30 adjudicative
         processing days 4/ 5/)
         RAILROAD RETIREMENT BOARD
                                                                   2007 Actual       2008 Actual       2009 Actual      2010 Projected     2010 Actual
         FY 2010 ANNUAL                                                        1/                1/                1/                1/                1/
                                                                  (At $103.7m)      (At $101.9m)      (At $105.5m)      (At $109.1m)      (At $109.1m)
         PERFORMANCE REPORT
         Revised goal for 2008 and later

         I-A-5. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 35 days of the annuity                              92.4%             94.86%            92.75%            95.46%
         beginning date, if advanced filed.
         (Measure for fiscal year 2008: % ≤ 30 adjudicative
         processing days. Measure starting with fiscal year
         2009: % ≤ 35 days. 4/)
         I-A-6. Railroad retirement employee or spouse
         receives initial annuity payment, or notice of denial,
         within 65 days of the date the application was filed,        96.8%
         if not advanced filed. (Measure: % ≤ 60
         adjudicative processing days 4/ 5/)
         Revised goal for 2008 and later
         I-A-6. The RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
- 48 -




         annuity application within 60 days of the date the                             96.1%             97.0%             96.80%            95.8%
         application was filed. (Measure for fiscal year 2008:
         % ≤ 60 adjudicative processing days. Measure
         starting with fiscal year 2009: % ≤ 60 days. 4/)

         I-A-7. Survivor annuitant not already receiving a
         benefit receives initial payment, a decision, or
         notice of transfer to SSA within 65 days of the              93.3%
         annuity beginning date, or date filed (whichever is
         later). (Measure: % ≤ 60 processing days 5/)

         Revised goal for 2008 and later

         I-A-7. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
                                                                                        92.9%             94.4%             93.00%            95.6%
         railroad retirement survivor not already receiving a
         benefit within 60 days of the annuity beginning date
         or date filed (whichever is later).
         (Measure: % ≤ 60 days 6/)

         I-A-8. Survivor annuitant receiving benefits as
         spouse receives payment as survivor, notice of
         denial, or notice of application transfer to SSA,
                                                                      94.8%
         within 35 days of RRB receipt of the notice of
         employee's death.
          (Measure: % ≤ 30 processing days 5/)
         RAILROAD RETIREMENT BOARD
                                                                   2007 Actual       2008 Actual       2009 Actual      2010 Projected     2010 Actual
         FY 2010 ANNUAL                                                        1/                1/                1/                1/                1/
                                                                  (At $103.7m)      (At $101.9m)      (At $105.5m)      (At $109.1m)      (At $109.1m)
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-8. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
                                                                                        95.1%             95.4%             95.10%            93.7%
         railroad retirement survivor already receiving the
         benefits as a spouse within 30 days of the RRB’s
         receipt of first notice of the employee’s death.6/
         (Measure: % ≤ 30 days.)

         I-A-9. Applicant for any railroad retirement death
         benefit receives payment, or notice of denial, within
                                                                      97.5%
         65 days of date filed. (Measure: % ≤ 60 processing
         days 5/)

         Revised goal for 2008 and later
         I-A-9. RRB makes a decision to pay or deny a lump
         sum death benefit within 60 days of the date the                               97.0%             97.43%            97.00%            98.2%
         application was filed. 6/
- 49 -




         (Measure: % ≤ 60 days)


         I-A-10. Unemployed railroad worker receives UI
         claim form, or notice of denial, within 15 days of the       99.5%
         date application filed. (Measure: % ≤ 10
         processing days 5/)

         Revised goal for 2008 and later
         I-A-10. RRB releases a UI claim form or letter of                              99.5%             99.50%                               100%
                                                                                                                            99.50%
         denial within 10 days of receiving an application for
         unemployment benefits. (Measure: % ≤ 10 days.)


         I-A-11. Railroad employee unable to work due to
         temporary illness or injury receives SI claim form, or
         notice of denial, within 15 days of the date                 99.2%
         application filed. (Measure: % ≤ 10 processing
         days 5/)
         RAILROAD RETIREMENT BOARD
                                                                   2007 Actual       2008 Actual       2009 Actual      2010 Projected     2010 Actual
         FY 2010 ANNUAL                                                        1/                1/                1/                1/                1/
                                                                  (At $103.7m)      (At $101.9m)      (At $105.5m)      (At $109.1m)      (At $109.1m)
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-11. RRB releases an SI claim form or letter of
         denial within 10 days of receiving an application for                          99.2%             99.34%            99.20%            99.59%
         sickness insurance benefits. (Measure: % ≤ 10
         days.)


         I-A-12. Railroad employee, unemployed or unable
         to work due to temporary illness or injury, receives a
         payment for unemployment or sickness insurance
                                                                      99.7%
         benefits, or a decision, within 15 days of claim
         receipt.
         (Measure: % ≤ 10 processing days 5/)


         Revised goal for 2008 and later
         I-A-12. RRB certifies a payment or releases a letter                                             99.80%
         of denial of UI or SI benefits within 10 days of the                           99.7%                               99. 80%           99.9%
- 50 -




         date RRB receives the claim.
         (Measure: % ≤ 10 days)


         I-A-13. Disabled applicant or family member
         receives notice of decision to pay or deny within 105
                                                                      69.6%
         days of the date application for disability is filed.
         (Measure: % ≤ 100 processing days 5/)


         Revised goal for 2008 and later
         I-A-13. RRB makes a decision to pay or deny a
         benefit for a disabled applicant or family member                              70.4%             62.5%             70.00%            67.9%
         within 100 days of the date the application is filed.
         (Measure: % ≤ 100 days)

         I-A-14. Disabled applicant receives payment within
         25 days of decision or earliest payment date
                                                                      95.3%             94.8%
         (whichever is later). (Measure: % ≤ 20 processing
         days 5/ 7/)
         RAILROAD RETIREMENT BOARD
                                                                  2007 Actual         2008 Actual            2009 Actual            2010 Projected                2010 Actual
         FY 2010 ANNUAL                                                       1/                  1/                     1/                      1/                           1/
                                                                 (At $103.7m)        (At $101.9m)           (At $105.5m)            (At $109.1m)                 (At $109.1m)
         PERFORMANCE REPORT

         Revised goal for 2009 and later
         I-A-14. The RRB makes a payment to a disabled
         applicant within 25 days of the date of decision or                                                      96.5%                   94.50%                       95.6%
         earliest payment date, whichever is later.
         (Measure: % ≤ 25 days 7/)

         I-A-15. Reduce the number of days elapsed
         between the date the appeal is filed and a decision       Not available      239 (Estimated)        231 (Estimated)                                              247
                                                                                                                                            190              (Estimated, through 5/31/10)
         is rendered. (Measure: average elapsed days) 8/


                                                    American
                                                                                                            ACSI field work was
                                                    Customer
         I-A-16. Achieve quality and                               ACSI survey                             completed by 9/17/09.
                                                  Satisfaction                      ACSI survey deferred
         accuracy of correspondence,                                deferred                                The final report was
                                                 Index (ACSI)
         publications, and voice                                                                             received 10/13/09.
                                                     surveys:
         communications. (Measure
         through fiscal year 2009: surveys
- 51 -




         and reviews; number of valid
         challenges to published data)
         (Revised measure for fiscal year       Challenges to
                                                                 No challenges to     No challenges to       No challenges to      No more than two valid
         2010 and later: number of valid           published                                                                                                 No challenges to published
                                                                  published data       published data         published data       challenges to published
         challenges to published data)                  data:                                                                                                           data
                                                                                                                                         data in 2010



         I-A-17. Improve timeliness and efficiency in posting
         service and compensation data to agency records.            99.81%                67.5%                  96.9%
         (Measure through fiscal year 2009: % of service
         and compensation records posted by April 15)
         (Revised measure for fiscal year 2010 and later:
         % of service and compensation records posted by                                                                                  94.00%               99.4% through 4/30/10
         May 1)

         I-A-18. Improve accuracy in posting service and
         compensation data to agency records. (Measure:
                                                                      99.5%                96.3%                  98.8%                   97.00%                       99.2%
         % of service and compensation records posted
         accurately)
         RAILROAD RETIREMENT BOARD
                                                                     2007 Actual             2008 Actual             2009 Actual            2010 Projected            2010 Actual
         FY 2010 ANNUAL                                                          1/                      1/                      1/                      1/                       1/
                                                                    (At $103.7m)            (At $101.9m)            (At $105.5m)            (At $109.1m)             (At $109.1m)
         PERFORMANCE REPORT

         I-A-19. Covered employer annual reports of
         employees filed electronically, or on magnetic
                                                                           98.2%                   98.7%                   98.8%                  98.00%            98.8% through 4/30/10
         media. (Measure: % of employee records filed
         electronically, or on magnetic media)


         Performance Goal I-B: Provide a range of choices in service delivery methods.


         I-B-1. Offer electronic options to our customers,
         allowing them alternative ways to perform primary
         services via the Internet or interactive voice             16 services available   17 services available   18 services available   19 services available   18 services available
         response systems. (Measure: # of services
         available through electronic media)

         I-B-2. Enable employers to use
         the Internet to conduct business
         with the RRB, in support of the           a) Employers
                                                                           62.0%                   69.0%                   77.0%                   76.0%                   79.0%
- 52 -




         Government Paperwork                        using ERS:
         Elimination Act.
         (Measures: % of employers who
         use the online Employer
         Reporting System (ERS); # of                 b) Internet    7 Internet services     8 Internet services    10 Internet services    17 Internet services     10 Internet services
         services available through                    services:          available               available               available               available                available
         electronic media)

         Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources

         Performance Goal II-A: Ensure that trust fund assets are projected, collected, recorded and reported appropriately.

         II-A-1. Debts will be collected through billing, offset,
         reclamation, referral to outside collection programs,              59%                     58%                     56%                     55%                     43%
         and a variety of other collection efforts. (Measure:
         funds collected vs. total debts outstanding)


         II-A-2. Release quarterly and annual notices to
         employers regarding their experience rating-based                  Yes                     Yes                     Yes                     Yes                      Yes
         contr butions. (Measure: Yes/No)
         RAILROAD RETIREMENT BOARD
                                                                    2007 Actual            2008 Actual            2009 Actual          2010 Projected           2010 Actual
         FY 2010 ANNUAL                                                         1/                     1/                     1/                    1/                      1/
                                                                   (At $103.7m)           (At $101.9m)           (At $105.5m)          (At $109.1m)            (At $109.1m)
         PERFORMANCE REPORT

         II-A-3. Complete compensation reconciliations at
         least 1 year before the statute of limitations expires.
         (Compensation reconciliations involve a                   100% of the 2004        100% of the 2005       100% of the 2006     100% of the 2007         100% of the 2007
         comparison of compensation reported by railroad           reconciliations by      reconciliations by     reconciliations by   reconciliations by      reconciliations were
         employers to the RRB for benefit calculation                  12/11/06                 2/26/08               1/27/09               2/28/10           completed by 2/05/10.
         purposes with compensation reported to the IRS for
         tax purposes.) (Measure: % completed)



         II-A-4. Perform monthly reasonableness tests
         comparing railroad retirement taxes deposited
         electronically, which represent over 99 percent of all
         railroad retirement taxes, against tax receipts                                                                                                      Yes. As of 4/20/2010,
         transferred to the RRB trust funds by the                                                                                                          reasonableness tests had
                                                                          Yes                     Yes                    Yes                  Yes
         Department of the Treasury (Treasury) to provide                                                                                                     been updated through
         reasonable assurance the RRB trust funds are                                                                                                            February 2010.
         receiving appropriate tax funds. (Measure:
         reasonableness test performed and anomalies
- 53 -




         reconciled with Treasury, Yes/No)



         II-A-5. Prepare annual Performance and
         Accountability Report (including audited financial        Yes. The FY 2006     Yes. The FY 2007 P&AR     Yes. The FY 2008
                                                                                                                                                            Yes. The FY 2009 P&AR
         statements and other financial and performance            P&AR was released        was released on     P&AR was released on          Yes
                                                                                                                                                            was released on 11/16/09.
         reports) by the required due dates. (Measure:               on 11/15/06.              11/15/07.              11/17/08.
         Yes/No)


         II-A-6. Take prompt corrective action on audit
         recommendations. (Measure: % of audit                          93.2%                   94.0%                  95.0%                91.0%                    94.9%
         recommendations implemented by target date)



         Performance Goal II-B: Ensure the integrity of benefit programs.



         II-B-1. Achieve a return of at least $3.60 for each
         dollar spent on program integrity activities.               $5.48 : $1.00           $5.76 : $1.00          $6.44 : $1.00        $5.48 : $1.00         Data not available
         (Measure: recoveries and savings per dollar spent)
         RAILROAD RETIREMENT BOARD
                                                                2007 Actual                2008 Actual                 2009 Actual                 2010 Projected                   2010 Actual
         FY 2010 ANNUAL                                                     1/                         1/                          1/                           1/                              1/
                                                               (At $103.7m)               (At $101.9m)                (At $105.5m)                 (At $109.1m)                    (At $109.1m)
         PERFORMANCE REPORT

         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.

         II-C-1. Continue succession planning by ensuring
         there is a cadre of highly skilled employees
         available for key positions.                                  Yes                       Yes                          Yes                          Yes                             Yes
         (Measure: structured succession planning activities
         are continuing. (Yes/No))


         II-C-2. Annually assess/update all computer           Yes. RRB met its        Yes. With contractor        Yes. Certification and       Yes. The LAN/PC and           Yes. The contractor
         security, disaster recovery, and business             performance goal for    assistance, the             accreditation of both        mainframe general support     assisting with the
         resumption plans for the agency. (Measure:            fiscal year 2007.       certification and           RRB general support          systems will be               certification & authorization
         Yes/No)                                               RRB certified and       accreditation of the        systems and all 6 major      consolidated and require a    of the agency’s consolidated
                                                               accredited one          Mainframe General           applications were            complete certification and    general support system and
                                                               general support         Support System and 5 of     completed. Updated           accreditation. The other      with the continuous
                                                               system. The agency      6 major applications were   disaster recovery            RRB systems will be in the    monitoring project began
                                                               also hired an           completed. The was in       information provided by      post-accreditation phase      work on the project in June,
                                                               information             progress at the end of      agency business              and undergoing continuous     and the project is scheduled
- 54 -




                                                               availability analyst    the fiscal year. An         components was used to       control monitoring. The       to be completed before the
                                                               and completed a         assessment of agency-       prepare the RFP for          agency will test disaster     end of the fiscal year. The
                                                               training test and       wide common controls        recompeting the              recovery capability twice     first of two disaster recovery
                                                               exercise of the         was performed.              alternate IT recovery site   during the year at an         tests scheduled for 2010
                                                               Continuity of           Contingency planning        contract.                    alternate IT recovery site.   was conducted at the
                                                               Operations Plan.        was tested and disaster                                                                alternate IT recovery site.
                                                                                       recovery training was
                                                                                       conducted off-site.

         II-C-3. Develop and implement new procedures for      Yes. The Intrusion      Yes. Components of the
         responding to and reporting computer security         Detection System        Core Intrusion Detection/
         incidents. (Measure: Yes/No)                          was upgraded to         Prevention System were
                                                               Intrusion Prevention.   updated to improve the
                                                               A network access        stability and uptime of
                                                               control device was      back-end processes.
                                                               installed on the        Tuning of network access
                                                               agency LAN/WAN          control was competed. A
                                                               general support         Vulnerability Remediation
                                                               system to provide       Task Force was formed
                                                               increased security      to improve the RRB’s
                                                               management              security incident
                                                               capabilities.           response capability.
         RAILROAD RETIREMENT BOARD
                                                                2007 Actual                2008 Actual                  2009 Actual                 2010 Projected                   2010 Actual
         FY 2010 ANNUAL                                                     1/                         1/                           1/                           1/                              1/
                                                               (At $103.7m)               (At $101.9m)                 (At $105.5m)                 (At $109.1m)                    (At $109.1m)
         PERFORMANCE REPORT
         Revised goal for 2009 and later

         II-C-3. Maintain an incident response program for
         responding to and reporting computer security                                                                         Yes                          Yes                            Yes
         incidents. (Measure: All cyber security incidents
         will be reported to US-CERT. Yes/No)

         II-C-4. Assess computer security training            Yes. All staff with      Yes. The annual RRB           Yes. The annual Federal    Yes. The annual FISMA           The annual FISMA security
         requirements and implement an ongoing training       computer security        computer security             Information Security Act   computer security               awareness training began
         program for agency staff. (Measure: Yes/No)          respons bilities         awareness program was         (FISMA) computer           awareness training and          on May 3, 2010.
                                                              received role-based      launched in March 2008.       security awareness         specialized security training
                                                              security training at     As of 7/02/08, the OPM        training and specialized   will be initiated in March
                                                              OPM’s                    GoLearn.gov role-based        security training was      2010. Additional role-
                                                              GoLearn.gov.             security training program     completed. This training   based technical training will
                                                              Technical IT             was completed.                program had 100%           be provided as required.
                                                              specialists              Specialized technical         participation with 1,013
                                                              participate in a track   education was approved        employees and
                                                              that requires            for all training designated   contractors accounted
                                                              security-specific        as critical or vital for      for.
- 55 -




                                                              technical education      achieving performance
                                                              associated with their    goals.
                                                              job. The annual
                                                              computer awareness
                                                              program for all
                                                              employees and
                                                              contractors with
                                                              network access was
                                                              completed.

         II-C-5. Implement a methodology to successfully      This objective was
         estimate, track and monitor total costs and time     completed with full
         schedules for information technology investments     implementation of
         through the project life cycle, incorporating both   the project
         web and mainframe investments. (Measure:             management system
         Yes/No)                                              in the Bureau of
                                                              Information
                                                              Services.


         II-C-6. Assemble and publicize an annual inventory
         of RRB commercial activities on the RRB website.              Yes                        Yes                          Yes                          Yes                            Yes
         (Measure: Yes/No)
         RAILROAD RETIREMENT BOARD
                                                                2007 Actual              2008 Actual                2009 Actual                  2010 Projected                   2010 Actual
         FY 2010 ANNUAL                                                     1/                       1/                         1/                            1/                              1/
                                                               (At $103.7m)             (At $101.9m)               (At $105.5m)                  (At $109.1m)                    (At $109.1m)
         PERFORMANCE REPORT

         II-C-7. Meet government percentage goal for use of
         performance-based contracting techniques for                  Yes                      Yes                        Yes                            Yes                            Yes
         eligible service contract funds. (Measure: Yes/No)



         II-C-8. Support government-wide procurement of
         e-Government initiatives using the point of entry                                                                 Yes                            Yes                            Yes
                                                                       Yes                      Yes
         vehicle of .FedBizOpps. for all eligible actions.
         (Measure: Yes/No)



         II-C-9. Complete migration from the agency’s
                                                               Yes. The IDMS/DB2
         current mainframe database management system
                                                               database conversion
         (IDMS) to DB2, and initiate efforts to optimize the
                                                                 was successfully
         performance of those databases and further reduce
                                                                 completed as of
         data redundancy. (Measure: Meet target dates for
                                                                     8/18/07.
         the migration. Yes/No)
- 56 -




         II-C-10. Complete data optimization to optimize the
         performance of DB2 databases for future                   Yes. RRB                                       Yes. This project was
         developmental efforts, and to further reduce and       contracted for this             Yes              completed by the revised
         document the data. (Measure: Meet target dates               effort.                                     target date of 2/28/09.
         for the project. Yes/No)



         II-C-11. Complete modernization of RRB                                                                  Yes. The project is in the     Yes. The initial analysis    Yes. The analysis phase is
         processing systems in accordance with long-range       New indicator for        New indicator for        analysis and planning       and planning phase will be     near completion, and project
         planning goals. (Measure: Meet target dates for           FY 2009                  FY 2009                  phase and is on          completed and project work     work will begin in fiscal year
         each phase of the project. Yes/No)                                                                      schedule as anticipated.             will begin.                        2010.

                                                                                                                                                                                   Fourteen of these
                                                                                                                                              As of 1/22/10, 13 corrective
                                                                                                                  As of 9/30/09, all 16                                         recommendations have
                                                                                                                                               actions were final, and 2
         II-C-12. Complete 16 corrective actions to correct                                                      corrective actions have                                          been completed and
                                                                                                                                               were under review. One
         the RRB’s material weakness related to information     New indicator for     Three corrective actions    been completed and                                           accepted by the OIG, and
                                                                                                                                                 corrective action was
         security. (Measure: Meet target dates for the             FY 2008               were completed.           sent to the OIG for                                           are now closed. The 2
                                                                                                                                               rejected by the OIG, and
         project. Yes/No)                                                                                                 review.                                            remaining recommendations
                                                                                                                                               will be completed in fiscal
                                                                                                                                                                              are pending OIG review for
                                                                                                                                                       year 2010.
                                                                                                                                                                                        closure.
          RAILROAD RETIREMENT BOARD
                                                                2007 Actual              2008 Actual               2009 Actual               2010 Projected                2010 Actual
          FY 2010 ANNUAL                                                    1/                       1/                        1/                         1/                           1/
                                                               (At $103.7m)             (At $101.9m)              (At $105.5m)               (At $109.1m)                 (At $109.1m)
          PERFORMANCE REPORT


          Performance Goal II-D: Effectively carry out the responsibilities of the National Railroad Retirement Investment Trust.


          II-D-1. Review monthly reports submitted by the                                                                                                                        Yes
                                                                      Yes                     Yes                        Yes                        Yes
          Trust. (Measure: Yes/No)



          II-D-2. Review annual management reports                                                                                                                               Yes
                                                                      Yes                     Yes                        Yes                        Yes
          submitted by the Trust. (Measure: Yes/No)



          II-D-3. Review annual audit reports of the Trust’s                                                                                                                     Yes
                                                                      Yes                     Yes                        Yes                        Yes
          financial statements. (Measure: Yes/No)
- 57 -




         1/
           Dollar amounts shown are funds obligated or appropriated for the fiscal year. Actual results for fiscal year 2010 represent status as of 3/31/10 unless otherwise
         noted.
         2/
              Payment Accuracy Rate – the percentage of dollars paid correctly as a result of adjudication actions performed. Case Accuracy Rate – the percentage of cases that
              do not contain a material payment error. Case accuracy rates reflect only those errors that are detected as a result of reviewing award actions performed during the
              fiscal year being studied. (A material error is (1) an incorrect payment of $5.00 or more at the point the error is identified, (2) an incorrect payment of less than $5.00
              totaling 1 percent or more of the monthly rate, or (3) any situation in which a non-entitled benefit is paid.)
         3/
              The quality review of post recurring payments is being deferred in fiscal year 2010 because the accuracy rates have historically been very high, and the findings
              minimal. The return on measuring this area every year has diminished over time. The quality review will be deferred until processing or staffing changes warrant
              reviewing this area again.
         4/
              In audit report 05-05, dated May 17, 2005, the RRB’s OIG found problems with the performance data for these indicators. One significant problem was resolved
              immediately, allowing us to report performance for fiscal year 2005, and later. However, there were still some system limitations that prevented inclusion of all internal
              processing time in the performance data prior to fiscal year 2009. Another program error caused a small number (less than 1 percent) of spouse applications to be
              calculated incorrectly. Effective October 1, 2008, these system problems were corrected. As a result of these system changes, beginning in fiscal year 2009, we
              measure timeliness by calendar days rather than adjudicative processing days as in previous years.
         5/
              Measure does not include the time for customer receipt (from U.S. Treasury or Postal Service).
         6/
              This objective was restated as of April 2009, to more accurately describe how timeliness is measured. For objective I-A-9, the term “railroad retirement death benefit”
              was changed to “lump sum death benefit” to correspond with references to this benefit in the RRB’s regulations.
         7/
              This indicator includes both retirement and survivor disability payments. The employee payments are impacted by the system limitations identified in footnote 4
              above. Effective October 1, 2008, these system problems were corrected.
         8/
              In fiscal year 2009, system testing disclosed inaccuracies in the computer program used to calculate the average time from the filing of an appeal to decision. Due to
              these errors, timeliness data is not available for fiscal year 2007. Estimated actual data reported for fiscal years 2008 and 2009, reflects the output available from the
              program in question, considering only data as of the end of the fiscal year. Further system corrections are still pending.
- 58 -
    Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2009


                 INDICATOR                                    DISCUSSION OF VARIANCE

Performance indicator I-A-1(a). Achieve a            The performance goal was set at an
railroad retirement benefit payment accuracy         approximate target level, and the deviation from
rate of at least 99% for initial recurring           that level is slight. There was no effect on
payments.                                            overall program or activity performance.
(Measure: % accuracy rate)

Our goal for fiscal year 2009 was 99.75%, and
the actual was 99.59%.


Performance indicators I-A-2 (a) and (b).            Unemployment and sickness insurance benefit
Achieve a railroad unemployment/sickness             payment accuracy goals were not met in fiscal
insurance benefit payment accuracy rate of at        year 2009 due to record high unemployment in
least 99%.                                           the rail industry and a shortage of staff at the
(Measure: % accuracy rate)                           field office level. The RRB is in the process of
                                                     hiring staff as resources permit.
Our fiscal year 2009 goal for unemployment
benefits was 99.25%, and the actual was
98.93%. Our fiscal year 2009 goal for sickness
insurance benefit payments was 99.80%, and
the actual was 99.70%.


Performance indicators I-A-4 (a) and (b).            Unemployment and sickness insurance case
Achieve a railroad unemployment/sickness             accuracy goals were not met in fiscal year 2009
insurance case accuracy rate of at least 98%         due to record high unemployment in the rail
(Measure: % of case accuracy)                        industry and a shortage of staff at the field office
                                                     level. The RRB is in the process of hiring staff
Our fiscal year 2009 goal for unemployment           as resources permit.
benefits was 97.50%, and the actual was
97.04%. Our fiscal year 2009 goal for sickness
insurance benefits was 99.00%, and the actual
was 97.52%.


Performance indicator I-A-13. The RRB                The loss of one claims examiner and the
makes a decision to pay or deny a benefit for a      assignment of two claims examiners to a special
disabled applicant or family member within 100       project involving disability applications adversely
days of the date the application is filed.           affected application processing timeliness.
(Measure: %≤ 100 days)                               Actions to improve performance include
                                                     expanded efforts to identify and monitor aging
Our goal for fiscal year 2009 was 70.00%, and        cases, reallocation of some initial unit work to
the actual was 62.50%.                               claims examiners in the post unit, and use of
                                                     overtime.




                                                 - 59 -
                  INDICATOR                                  DISCUSSION OF VARIANCE

Performance indicator I-A-15. Reduce the            In fiscal year 2009, system testing disclosed
number of days elapsed between the date the         inaccuracies in the computer program used to
appeal is filed and a decision is rendered.         calculate the average time from the filing of an
(Measure: average elapsed days)                     appeal to decision. Work on revisions to the
                                                    program began in fiscal year 2010. The
Our fiscal year 2009 goal was 190, and the          increase in estimated processing time partly
estimated actual was 231 days.                      reflects a more accurate assessment of actual
                                                    time elapsed compared to earlier years.
                                                    Increased processing time also reflects the loss
                                                    of experienced staff to retirement and training
                                                    time for replacements.


Performance indicator I-B-2 (b). Enable             Plans for fiscal year 2009 included completing
employers to use the Internet to conduct            the online BA-3 annual report of service and
business with the RRB, in support of the            compensation (and related forms). However,
Government Paperwork Elimination Act.               conversion of the existing Employer Reporting
(Measure: # of services available through           System (ERS) Forms BA-4, Report of
electronic media)                                   Creditable Compensation Adjustments, BA-6a,
                                                    Address Report, and GL-129, Request for
Our goal for fiscal year 2009 was 18 Internet       Verification of Service and Compensation, from
services, and the actual was 10 Internet            SAS to ASP.Net programming is taking longer
services.                                           than originally anticipated. Although this project
                                                    will not provide any additional Internet services,
                                                    it will establish the programming platform that
                                                    will be used in the future.

                                                    The platform conversion is currently targeted for
                                                    completion in fiscal year 2011. The agency is
                                                    using contractor assistance to supplement in-
                                                    house staff on this project. The next stage of
                                                    the ERS project, which will provide additional
                                                    Internet services through the development of
                                                    form BA-3, is planned to begin after the
                                                    conversion is completed in fiscal year 2011.
                                                    The target completion date is not yet known.




                                                - 60 -
FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK
                                      Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2010.
This report incorporates the annual performance report under the Government Performance and
Results Act of 1993, the internal control report under the Federal Managers’ Financial Integrity
Act, and audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus
on the agency’s mission and accountability. We strive to maintain an environment in which
program and financial managers work in partnership to ensure the integrity of financial
information and use that information to make decisions, measure performance, and monitor
outcomes. In this environment, we envision integrated financial management systems with
appropriate internal review and controls that provide agency managers with timely, accurate,
and easily accessible information. We expect managers throughout the agency to use that
information to achieve program objectives in a cost-effective manner and to ensure
accountability.

The RRB continued to provide high quality financial management and financial reporting during
fiscal year 2010.

      We achieved an unqualified, or clean, audit opinion on our consolidated financial
       statements for fiscal year 2010. We also continued to prepare unaudited quarterly
       financial statements and met the accelerated schedule of releasing these statements to
       OMB.

      We implemented audit recommendations as follows:

       At the beginning of fiscal year 2010, the agency’s audit follow-up tracking system
       reported 181 audit recommendations as being open. During the fiscal year, audit reports
       containing another 64 recommendations were issued. As a result, the total number of
       open recommendations during the year was 245. At the same time, final action was
       completed on 86 audit recommendations and 5 audit recommendations were rejected,
       resulting in a balance at the end of the fiscal year of 154 open recommendations.
       Additionally, the status of the OIG-identified material weaknesses and planned corrective
       action are presented in the Management’s Discussion and Analysis’ Management
       Assurances section.

In fiscal year 2010, the RRB contracted for an assessment of our core financial system to
evaluate potential and/or actual performance gaps in the system. The contractor completed its
assessment in October 2010. We will now review the assessment and accompanying report to
decide what actions to take to ensure we continue to have a reliable financial system.

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.


                                                                                Original signed by:

                                                                              Kenneth P. Boehne
                                                                            Chief Financial Officer

                                              - 63 -
                                    

                                        

                                                

        





                

                                            

                    

                                





                            

                                    

                                                    

                                                            

    





                

            



    





            

                        

    





                                                                

                                                

                                                                    

                                                        

            

    

        



        

    













            


            







    

        

                                          Statement of Social Insurance (Note 15, Note 16)

                                                    Actuarial Surplus or (Deficiency)

                                                75-year Projection as of January 1, 2010

                                                  (Present values in billions of dollars)


                                                                               1/1/2010     1/1/2009   1/1/2008   1/1/2007 1/1/2006

Estimated future income (excluding interest) received from or on behalf of:

   Current participants not yet having attained retirement age                    $72.9       $75.9      $69.6      $66.7     $65.0
   Current participants who have attained retirement age                           70.3        69.0       66.2       63.4      62.5
   Those expected to become participants                                           53.2        57.2       43.3       43.1      44.3
   Subtotal - future income for the 75-year period                                196.4       202.1      179.1      173.1     171.8


Estimated future expenditures:

   Current participants not yet having attained retirement age                     88.0        91.2       88.4       86.0      84.1
   Current participants who have attained retirement age                          104.8       102.1       97.0       92.8      91.7
   Those expected to become participants                                           27.4        29.5       26.0       25.5      25.0
   Subtotal - future expenditures for the 75-year period                          220.2       222.8      211.5      204.2     200.8


Estimated future excess of income over expenditures:                              (23.8)      (20.7)     (32.3)     (31.1)   (29.0)


Fund balance:                                                                      24.9        21.8       33.2       32.0     30.0


Fund balance plus estimated future excess of income over expenditures:              1.0          1.1       0.9        0.9      1.0




                                                                 - 69 -
Notes to the Financial Statements: Fiscal Years Ended September 30, 2010 and 2009


1. Summary of Significant Accounting Policies

A. Basis of Presentation

Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003, and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2010 are to be
submitted to the President, the Congress, and the Director of OMB by November 15, 2010. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, and Social Insurance. These statements
are different from the financial reports, also prepared by the RRB pursuant to OMB directives,
used to monitor and control the RRB's use of budgetary resources.

B. Reporting Entity

The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●   Railroad Retirement (RR) Account, 60X8011, funds retirement, survivor, and disability
    benefits in excess of social security equivalent benefits from payroll taxes on employers and
    employees and other income sources. Account 60X8011 is considered an earmarked fund.
    Our authority to use these collections is 45 United States Code (USC) §231(F)(c)(1).

●   Social Security Equivalent Benefit (SSEB) Account, 60X8010, funds the portion of railroad
    retirement benefits equivalent to a social security benefit from various income sources
    related to these benefits. Account 60X8010 is considered an earmarked fund. Our authority
    to use these collections is 45 USC §231N-1(c)(1).

●   Dual Benefits Payments (DBP) Account, 60 0111, funds the phase-out costs of certain
    vested dual benefits from general appropriations. Account 60 0111 is considered a general
    fund. Our authority to use these collections is 45 USC §231(N)(d).

●   Federal Payments to the Railroad Retirement Accounts, 60X0113, was established by OMB,
    not by legislation, and is used as a conduit for transferring certain income taxes on benefits
    and receiving credit for the interest portion of uncashed check transfers. Account 60X0113
    is considered an earmarked fund. This account has no basis in law.

●   Limitation on Administration Account, 60 8237, pays salaries and expenses to administer
    the railroad retirement program and the railroad unemployment and sickness insurance
    program. This account is financed by the RR Account, the SSEB Account, and the Railroad


                                              - 70 -
    Unemployment Insurance Trust Fund, Administrative Expenses. Account 60 8237 is
    considered an earmarked fund. Our authority to use these collections is
    45 USC §231N-1(c) and 45 USC §231N-(H).

●   Limitation on Administration Account, 60X8237, Public Law 107-217, Sec. 121(d)(3),
    authorizes Federal agencies to retain indefinitely as “no-year money” any unexpended
    portion of the fiscal year appropriated funds, up to the estimated cost of the operation and
    maintenance (O&M) of the delegated properties. Funds carried over may only be expended
    for O&M and repair of the facility. In addition, this fund contains the Limitation on
    Administration funds for extended unemployment benefits provided under Public
    Law 111-92. Account 60X8237 is considered an earmarked fund.

●   Railroad Unemployment Insurance Trust Fund, Benefit Payments, 60X8051.001, funds
    railroad unemployment and sickness insurance benefits from contributions by railroad
    employers. Account 60X8051.001 is considered an earmarked fund. Our authority to use
    these collections is 45 USC §360.

●   Railroad Unemployment Insurance Trust Fund, Administrative Expenses, 60X8051.002, was
    established to pay salaries and expenses to administer the program. Account 60X8051.002
    is considered an earmarked fund. This fund is financed by contributions from railroad
    employers. Monies are transferred from this fund, based on cost accounting estimates and
    records, to the Limitation on Administration Account (60 8237) from which salaries and
    expenses are paid for both the railroad retirement program and the railroad unemployment
    and sickness insurance program. Our authority to use these collections is 45 USC §361.

●   Limitation on the Office of Inspector General, 60 8018, was established to fund the
    administration of the Inspector General's Office. Account 60 8018 is considered an
    earmarked fund. Our authority to use these collections is Public Law 111-117.

●   City and State Taxes (6275) was established as a holding account for amounts withheld
    from employees' salaries but not yet paid to the appropriate institutions.

●   Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, 60X0114:
    Funds provided under Public Law 111-5, American Recovery and Reinvestment Act of
    2009.

●   Economic Recovery Payments – Recovery Act, 60 0115: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60X0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60 0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60X8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60 8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.



                                             - 71 -
●   Railroad Unemployment Insurance Extended Benefit Payments, for Limitation Account –
    60X0118: Funds provided under Public Law 111-92, Worker, Homeownership, and
    Business Assistance Act of 2009.

●   Railroad Unemployment Insurance Extended Benefit Payments – 60X0117: Funds provided
    under Public Law 111-92, Worker, Homeownership, and Business Assistance Act of 2009.

C. Budgets and Budgetary Accounting

Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. Basis of Accounting

As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.

The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. Concepts

The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Department of the Treasury (Treasury), excluding seized cash deposited. The FBWT is
increased by (1) receiving appropriations, reappropriations, continuing resolutions, appropriation
restorations, and allocations; and (2) receiving transfers and reimbursements from other
agencies. It also is increased by amounts borrowed from the Bureau of the Public Debt (BPD),
the Federal Financing Bank, or other entities, and amounts collected and credited to
appropriation or fund accounts. The FBWT is reduced by (1) disbursements made to pay
liabilities or to purchase assets, goods, and services; (2) investments in U.S. securities
(securities issued by BPD or other Federal Government agencies); (3) cancellation of expired
appropriations; (4) transfers and reimbursements to other entities or to the General Fund of the
Treasury; and, (5) sequestration or rescission of appropriations.



                                              - 72 -
F. Earmarked Funds

SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires separate presentation and
disclosure of earmarked funds balances in the financial statements. Earmarked funds are
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. Earmarked funds meet the following criteria:

       A statute committing the Federal Government to use specifically-identified revenues and
        other financing sources only for designated activities, benefits, or purposes;
       Explicit authority for the earmarked fund to retain revenues and other financing sources
        not used in the current period for future use to finance the designated activities, benefits,
        or purposes; and
       A requirement to account for and report on the receipt, use, and retention of the
        revenues and other financing sources that distinguishes the earmarked funds from the
        Government’s general revenues.

Refer to Note 17, Earmarked Funds, for additional information.


2. Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●   Treasury collects payroll taxes from the railroads on behalf of the RRB. The taxes collected
    are credited by Treasury to the RRB’s trust fund account via an appropriation warrant. In
    fiscal years 2010 and 2009, net payroll taxes transferred to the RRB by Treasury were
    $4.6 billion and $4.7 billion, respectively.

    Treasury provides payment services to Federal agencies and operates collections and
    deposit systems. The RRB invests in government account securities through BPD. In fiscal
    years 2010 and 2009, investments, including accrued interest, totaled $1.3 billion and
    $1.2 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
    interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
    year 2010 due to the financial interchange advances during fiscal year 2009 included
    principal of $3.7 billion and interest of $144 million. The amount paid by the RRB to
    Treasury in fiscal year 2009 due to the financial interchange advances during fiscal year
    2008 included principal of $3.4 billion and interest of $171 million.

●   The Social Security Administration (SSA) and RRB participate in an annual financial
    interchange. The financial interchange is intended to place the social security trust funds in
    the same position in which they would have been had railroad employment been covered by
    the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2010,
    the RRB trust funds realized $4.4 billion through the financial interchange.

    Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
    certain individuals, described in this section, monthly social security benefits on behalf of
    SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
    reimbursed were $1.3 billion for both fiscal years 2010 and 2009.




                                                - 73 -
●   The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
    interchange in the same manner as described for SSA. The RRB transferred $535 million
    and $524 million to CMS in fiscal years 2010 and 2009, respectively. In addition to the
    financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
    associated with administering the Medicare program. The amounts reimbursed in fiscal
    years 2010 and 2009 were $11.0 million and $10.5 million, respectively.

●   The General Services Administration (GSA) provides payroll processing and human
    resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
    $3.3 million for both fiscal years 2010 and 2009.

●   The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
    contributions. Accounts receivable with the DOL amounted to $30 million and $36 million for
    fiscal years 2010 and 2009, respectively.

●   The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
    payment of railroad retirement benefits. During fiscal years 2010 and 2009, the NRRIT
    transferred $1,989 million and $1,553 million, respectively, to the RR Account. The NRRIT
    holds and invests funds not immediately needed to pay benefits under the RRA. The net
    assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
    investment. The RRB reports this information based on information provided by the NRRIT
    for that purpose.


3. Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                      2010               2009
    A. Fund Balances:
           (1) Trust Funds                                        $ 49,681,373        $58,103,826
           (2) General Funds                                       178,450,174         22,940,297
           (3) Other Fund Types                                              0                  0

                   Total                                          $228,131,547        $81,044,123

    B. Status of Fund Balance with Treasury (FBWT)
            (1) Unobligated Balance
                (a) Available                                     $122,786,746        $22,405,143
                (b) Unavailable                                     60,246,419          8,620,728
            (2) Obligated Balance not yet Disbursed                 45,098,382         50,018,252
            (3) Non-Budgetary FBWT                                           0                  0

                   Total                                          $228,131,547        $81,044,123

    C. Other Information: The above represents cash held in Treasury. Unobligated and obligated
       funds not held in cash are invested in Treasury securities.




                                                - 74 -
4. Investments

The investments in Treasury securities represent the investments of two of the RRB’s
earmarked funds, the RR and the SSEB Accounts.

                                                  Amounts for Balance Sheet Reporting
                                           Cost           Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2010      $1,297,808,000             $2,098,411        $1,299,906,411

  Non Marketable Par Value 2009        $1,189,162,000             $2,015,782        $1,191,177,782

The balance on September 30, 2010, consisted of investments in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2010. The balance on
September 30, 2009, consisted of investments in 3.000 percent par value specials (with market
value equal to face value) maturing on October 1, 2009. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the Federal Government, these assets and liabilities offset each other
from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Federal Government finances
all other expenditures.


5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at fair value, as of
September 30, 2010 and 2009. These figures were provided to the RRB by the NRRIT for the
fiscal years ended September 30, 2010 and 2009.

Readers of these financial statements should be aware that the Railroad Retirement and
Survivors’ Improvement Act of 2001 authorizes the NRRIT to invest railroad retirement assets in
a diversified investment portfolio in the same manner as those of private sector retirement
plans.




                                              - 75 -
6. Accounts Receivable

• Intragovernmental

Accounts receivable - Intragovernmental at September 30 consisted of:

                                                                               2010              2009

   Financial Interchange – Principal                                        $4,275,900,000    $4,186,600,000
   Financial Interchange – Interest                                            141,600,000       122,800,000
   Department of Labor                                                          29,629,643        35,552,013
   CMS – Refund of Medicare Part B Premiums                                        169,000         3,946,313
   Social Security Administration - OASI/DI Benefits
                   (Old Age and Survivors Insurance/Disability Insurance)         115,964           195,423

    Total                                                                   $4,447,414,607    $4,349,093,749

• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                                 2010           2009

   Accounts receivable - Benefit overpayments                                $47,195,476     $45,632,597
   Accounts receivable – Past due RUI contributions and taxes                    572,713         241,565
   Accounts receivable – Interest, penalty & administrative costs                349,632         315,979
    Total                                                                    $48,117,821     $46,190,141
   Less: Allowances for doubtful accounts                                     10,604,666       9,516,049

     Net Total                                                               $37,513,155     $36,674,092

The RRB’s September 30, 2010, accounts receivable balance (after deducting currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $48,117,821 includes $42,621,798 (89%) in railroad retirement program receivables and
$5,496,023 (11%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $10,604,666. This includes $9,044,345 (85%) for the railroad
retirement program and $1,560,321 (15%) for the unemployment insurance program
receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.


7. Inventory and Related Property

Operating materials and supplies are valued on the cost basis. The recorded values are
adjusted for the results of physical inventories taken periodically. Expenditures are recorded
when inventories are consumed.




                                                          - 76 -
8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                              At September 30, 2010
                                             Service                               Accumulated         Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,658,367       $       65,364
ADP software                                   5 years           19,615,921         19,589,866               26,055
Equipment                                   5-10 years            4,844,244          4,610,150              234,094
Internal-Use Software in Development                              1,248,235                  0            1,248,235

                                                                $28,432,131        $26,858,383        $1,573,748



                                                                              At September 30, 2009
                                             Service                               Accumulated         Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,638,317        $      85,414
ADP software                                   5 years           19,601,720         19,562,554               39,166
Equipment                                   5-10 years            5,275,125          5,142,977              132,148
Internal-Use Software in Development                              1,248,236                  0            1,248,236

                                                                $28,848,812        $27,343,848        $1,504,964

9. Liabilities

Liabilities at September 30 consisted of:

                                                                              2010                   2009
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
            (FECA) Liability                                              $      605,928         $        393,968

  Public:
    Other – Accrued Unfunded Leave                                        $    7,272,293         $    7,200,668

  Total Liabilities Not Covered by Budgetary Resources                    $    7,878,221         $    7,594,636
  Total Liabilities Covered by Budgetary Resources                         5,081,481,953          4,954,631,807

  Total Liabilities                                                       $5,089,360,174         $4,962,226,443




                                                       - 77 -
• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                              2010                   2009

   Beginning Balance, Principal                                           $3,359,200,000       $3,096,200,000
    New Borrowing                                                          3,814,500,000        3,656,700,000
    Repayments                                                            (3,693,200,000)      (3,393,700,000)
    Ending Balance, Principal                                              3,480,500,000        3,359,200,000
    Accrued Interest                                                          54,328,185           57,675,148

     Total                                                                $3,534,828,185       $3,416,875,148

• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $12,003,999 and $11,628,885, at
September 30, 2010 and 2009, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were
drawn. The principal amount of uncashed checks must remain in a liability account until the
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.
In addition, a special workload of approximately 14,400 benefit cases, estimated at $6 million to
$10 million, has been identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                                     2010
                                                        Non-Current             Current              Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable     $             0        $     983,824     $     983,824
     Unfunded FECA Liability                                          0              605,928           605,928
      Total Intragovernmental                                         0            1,589,752         1,589,752

   Accrued Unfunded Liabilities                                    0               7,272,293        7,272,293
   Accrued Payroll                                                 0               4,422,873        4,422,873
   Accrued RRB Contributions – Thrift Savings Plan                 0                 112,536          112,536
   Withholdings Payable                                            0                  42,273           42,273
   Contingent Liability (see Note 10 for details)        105,000,000                 900,000      105,900,000
   Capital Lease Liability                                         0                       0                0
   Other                                                           0               3,142,904        3,142,904

      Total Other Liabilities                           $105,000,000           $17,482,631       $122,482,631




                                                      - 78 -
                                                                                                2009
                                                         Non-Current           Current          Total

    Intragovernmental:
      Employer Contributions & Payroll Taxes Payable      $            0   $      858,346   $     858,346
      Unfunded FECA Liability                                          0          393,968         393,968
       Total Intragovernmental                                         0        1,252,314       1,252,314

    Accrued Unfunded Liabilities                                    0           7,200,668      7,200,668
    Accrued Payroll                                                 0           3,949,442      3,949,442
    Accrued RRB Contributions – Thrift Savings Plan                 0              95,867         95,867
    Withholdings Payable                                            0              41,392         41,392
    Contingent Liability (see Note 10 for details)        105,000,000                        105,000,000
    Capital Lease Liability                                         0                   0              0
    Other                                                           0           5,739,905      5,739,905

       Total Other Liabilities                           $105,000,000      $18,279,588      $123,279,588



10. Commitments and Contingencies

The RRB is involved in the following actions:

●    Several railroads have filed suits claiming a refund of Railroad Retirement Tax Act or FICA
     taxes paid on moving expenses and interest on supplemental annuity taxes. The RRB’s
     legal counsel has determined that it is probable that the RR Account is contingently liable for
     an estimated amount of $5.9 million and reasonably possible that the RRB is contingently
     liable for an additional estimated $2 million. Reflected on the Balance Sheet under other
     liabilities, an amount of $5 million was recorded in fiscal year 2009, and $0.9 million was
     recorded this year.

●    In fiscal year 2005, we recorded a contingent liability in the amount of $100,000,000, for an
     estimated forthcoming adjustment to the financial interchange for military service credits due
     SSA.

The total fiscal year 2010 contingent liability recorded is $105,900,000.

●   Several Class 1 railroads have filed claims for refund of taxes with the Internal Revenue
    Service (IRS). Of the $2.6 billion in claims, the RRB’s legal counsel has determined that it is
    reasonably possible that the RR and SSEB Accounts are contingently liable for an estimated
    amount of $1.2 billion, and the $1.4 billion is remote. Under the anti-disclosure provision of
    the IRS code, we are not permitted to disclose any details related to these claims. No
    provision has been made in the accompanying financial statements regarding these claims
    other than this disclosure.

As of September 30, 2010, the RRB had contractual arrangements which may result in future
financial obligations of $28.4 million.




                                                       - 79 -
11. Intragovernmental Costs and Exchange Revenue

                                                                   2010              2009
  Railroad Retirement (RR) Act Program
   Intragovernmental Costs                                   $   170,861,847     $ 190,456,180
   Public Costs                                               10,887,249,382      10,757,698,593
       Total RR Act Program Costs                            $11,058,111,229     $10,948,154,773

   Intragovernmental Earned Revenue                          $      11,276,432   $    10,545,873
   Public Earned Revenue                                                     0           441,659
       Total RR Act Program Earned Revenue                   $      11,276,432   $    10,987,532

  Railroad Unemployment Insurance (RUI) Act Program
   Intragovernmental Costs                                   $       4,504,732   $     4,701,258
   Public Costs                                                    192,621,132       200,938,820
       Total RUI Act Program Costs                           $     197,125,864   $   205,640,078

   Intragovernmental Earned Revenue                          $               0   $             0
   Public Earned Revenue                                            22,294,403        22,989,207
       Total RUI Act Program Earned Revenue                  $      22,294,403   $    22,989,207

These totals do not include $156,637 and $346,558 of earned revenues not attributable to either
program for fiscal years 2010 and 2009, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal Government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal Government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.


12. Transfers To/From NRRIT

The RRB received a total of $1,989 million and $1,553 million from the NRRIT during fiscal
years 2010 and 2009, respectively. These funds were received into the RR Account. Transfers
were to fund the payment of benefits.


13. Undelivered Orders at the End of the Period

                                               2010         2009

     Undelivered Orders                       $8,028,743   $8,447,798




                                                  - 80 -
      14. Explanation of Differences Between the Combined Statement of Budgetary Resources
          and the Budget of the United States Government

      A reconciliation was completed of budgetary resources, obligations incurred, distributed
      offsetting receipts, and outlays, as presented in the Statement of Budgetary Resources for the
      year ended September 30, 2009, to amounts included in the Budget of the United States
      Government. A reconciliation was not performed for the period ended September 30, 2010,
      since the RRB’s Performance and Accountability Report is published in November 2010, and
      OMB’s MAX system will not have actual budget data available until mid-December 2010.

      The Budget of the United States Government and the RRB’s Statement of Budgetary
      Resources differ because of the following transaction types:


                                                                       Fiscal Year 2009 (in millions)
                                                                                          Distr buted
                                                      Budgetary     Obligations            Offsetting
                                                      Resources      Incurred              Receipts       Net Outlays

1.      Combined Statement of Budgetary
          Resources – September 30, 2009                 $11,614        $11,583                 $4,325          $7,065
2.      Expenditure Transfers from Trust Funds              (115)
3.      Unobligated Balance, Brought Forward
          October 1, 2008                                    (10)
4.      Recoveries of Prior Year Unpaid Obligations           (1)
5.      Sickness Insurance Benefit Recoveries                (23)
6.      Administrative Expense Reimbursement                 (11)
7.      Cancelled Authority                                    1
8.      Interfund Transfers: Federal Payment
          Obligations – Income Taxes Collected
          on Benefits (0113)                                (321)
9.      Intrafund Transfers: Receipts from the
        Old-Age and Survivors Insurance (OASI)
        Trust Fund                                        (3,690)
10.     Intrafund Transfers: Receipts from the
        Disability Insurance (DI) Trust Fund                (448)

                   Financial Interchange

11.     Accrued Receipts from the OASI and DI
        Trust Funds                                                                               (373)            373
12.     RRB Transfers to the Federal Hospital
        Insurance Trust Fund                                                                       506            (506)

                          NRRIT

13.     NRRIT Obligations / Outlays                        1,623           1,623                                 1,623
14.     Intrafund Transfers: NRRIT Transfer to
          RRA                                             (1,553)                                1,553          (1,553)
15.     Proprietary Receipts: NRRIT – Gains and
          Losses                                            728                                   (728)            728
16.     Proprietary Receipts: NRRIT – Interest
          and Dividends                                     (378)                                  378            (378)
17.     Rounding                                               1               (1)                   1              (1)
18.     Budget of the United States Government
        FY 2009 Actuals                                   $7,417        $13,205                 $5,662          $7,351




                                                           - 81 -
15. Social Insurance

    Actuarial Surplus or (Deficiency) represents combined values for the RR Account,
     SSEB Account, and NRRIT.

    Estimated future income (excluding interest) includes tier 1 taxes, tier 2 taxes, income taxes
     on benefits, and financial interchange income, where financial interchange income consists
     of financial interchange transfers plus financial interchange advances from general revenues
     less repayment of financial interchange advances from general revenues.

    Estimated future expenditures include benefit and administrative costs.

    A closed group estimate of the future excess of income over expenditures using the
     projected tax rates under employment assumption II may be obtained by subtracting future
     expenditures for current participants from future income for current participants.

    Detail may not add to totals due to rounding. Employee and beneficiary status are
     determined as of 1/1/2009, whereas present values are as of 1/1/2010.

    The figures in the Statement of Social Insurance, rounded to millions of dollars prior to 2008,
     have been rounded to tenths of billions. The practice of displaying the figures in the
     Statement of Social Insurance in millions of dollars implies a degree of accuracy that
     75-year projections do not possess.

    Fund Balance

The fund balance appears on the face of the statement because the size of the balance directly
affects projected future cash flows. Lower fund balances lead to higher future tier 2 tax rates
and consequently higher tax income, while higher fund balances lead to lower tier 2 tax rates
and lower tax income.

The tier 2 tax rate is based on the Average Account Benefits Ratio (AABR). At the end of each
fiscal year (September 30), an Account Benefits Ratio (ABR) is calculated by dividing the fair
market value of the assets in the RR Account and the NRRIT (and for years before 2002, the
SSEB Account) as of the close of such fiscal year by the total benefits and administrative
expenses paid from the RR Account and the NRRIT during such fiscal year. The AABR, with
respect to any calendar year, is then calculated as the average of the account benefits ratios for
the 10 most recent fiscal years ending before such calendar year.

The January 1, 2007, fund balance does not include less than $0.1 billion of accrued interest
and dividends and miscellaneous adjustments related primarily to operating expenses of the
NRRIT. The January 1, 2006, fund balance was not reduced for certain payables of the NRRIT,
which were estimated to be less than $1 billion.

As stated earlier, a higher fund balance results in lower tax rates and consequently lower future
tax income and a lower balance results in higher rates and income. This self-adjusting tax rate
mechanism mitigates the effects of changes in the fund balance on the program’s net actuarial
position.




                                               - 82 -
16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary
Information are based on the assumption that the program will continue as presently
constructed. The calculations assume that all future transfers required by current law under the
financial interchange will be made.

The estimates are also based on various economic, employment, and other actuarial
assumptions. The ultimate economic assumptions are a 7.5 percent investment return, a
3 percent annual increase in the cost of living, and a 4 percent annual wage increase.

The employment assumption for the Statement of Social Insurance is employment
assumption II, the intermediate employment assumption, as used in the 2010 Section 502
Report. Under employment assumption II, starting with an average 2009 employment of
220,000, (1) railroad passenger employment is assumed to remain level at 43,000, and (2) the
employment base, excluding passenger employment, is assumed to decline at a constant
annual rate of 2.0 percent for 25 years, at a reducing rate over the next 25 years, and remain
level thereafter.

Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Fourth
Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of
December 31, 2007.” This may be found on the RRB’s website, www.rrb.gov.

Actuarial assumptions published in the Twenty-Fourth Actuarial Valuation include:

Table S-1.    2007 RRB Annuitants Mortality Table
Table S-2.    2007 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3.    2007 RRB Disabled Mortality Table for Annuitants without Disability
              Freeze
Table S-4.    2003 RRB Active Service Mortality Table
Table S-5.    2007 RRB Spouse Total Termination Table
Table S-6.    Probability of a retired employee having a spouse eligible for railroad
              retirement benefits
Table S-7.    1995 RRB Mortality Table for Widows
Table S-8.    1997 RRB Remarriage Table
Table S-9.    2004 RRB Total Termination Table for Disabled Children
Table S-10.   Calendar year rates of immediate age retirement
Table S-11.   Rates of immediate disability retirement and of eligibility for disability
              freeze
Table S-12.   Calendar year rates of final withdrawal
Table S-13.   Service months and salary scales
Table S-14.   Family characteristics of railroad employees assumed for the valuation of
              survivor benefits




                                             - 83 -
 



                	

                                             

                                              


	




    	




            	


                         

                             


                                 	




        	


                                         	
                     	
                    	

                                     	

                                         	

                                 	
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The amounts of Category B direct and reimbursable obligations are reported on the face of the
Statement of Budgetary Resources for fiscal years 2010 and 2009.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2010 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and lines 8A and 8B in the Statement of Budgetary Resources.


19. Terms of Borrowing Authority Used

The Railroad Retirement Solvency Act of 1983 provided for monthly advances of the financial
interchange (FI) from Treasury to be repaid when the FI is settled each June. Prior to 2008,
these advances were reported as nonexpenditure transfers, but are now reported as borrowing
authority. Section 7(c)(4) of the RRA provides the rules for repayment of the FI advances and
references Section 7(c)(3) for the interest rate to be used. The interest rate on the repayment of
the advances is the same as that used in the actual FI determination from the close of the prior
fiscal year until the date of transfer.


20. Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.


21. Subsequent Events

No material events or transactions have occurred subsequent to September 30, 2010, that we
are aware of. We have evaluated subsequent events through November 15, 2010, the date the
financial statements were released.




                                              - 86 -
    

                    

                        





                                

                

                                

        



                                    





                            

            

23. Adjustments to Unobligated Balance, Brought Forward, October 1

The unobligated balance brought forward October 1, 2008 for FY 2009 requires a $214
beginning balance adjustment to accommodate a new beginning balance edit in Treasury’s
Federal Agencies’ Centralized Trial-Balance System (FACTS II).




                                          - 88 -
                                          UNAUDITED

Required Supplementary Information

Social Insurance

   Program Financing

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare & Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
amount of social security payroll and income taxes relating to railroad employment and
computing the amount of additional benefits which social security would have paid to railroad
retirement beneficiaries during the same fiscal year. In the computation of the latter amount,
credit is given for any social security benefits actually paid to railroad retirement beneficiaries.
When benefit reimbursements exceed payroll and income taxes, the difference, with an
allowance for interest and administrative expenses, is transferred from the social security trust
funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer would be made
in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $78.7 billion, or
40.1% of the estimated future income of $196.4 billion.

Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of


                                               - 89 -
                                                    UNAUDITED

birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,
surviving divorced spouses, partitioned surviving spouses, partitioned surviving divorced
spouses, divorced widow(er)s, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or five years if performed after 1995; for survivor benefits,
there is an additional requirement that the employee’s last regular employment before
retirement or death was in the railroad industry. If a railroad employee or his or her survivors do
not qualify for railroad retirement benefits, the RRB transfers the employee’s railroad retirement
credits to SSA, where they are treated as social security credits.

Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2010. The figures in the table are based on the
2010 Section 502 Report extended through calendar year 2084. The present values in the table
are based on estimates of income and expenditures through the year 2084. The estimates
include income and expenditures related to future participants as well as to former and present
railroad employees. The present values are computed on the basis of economic and
demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the 2010 Section 502 Report. Under employment assumption II,
starting with an average 2009 employment of 220,000, (1) railroad passenger employment is
assumed to remain level at 43,000, and (2) the employment base, excluding passenger
employment, is assumed to decline at a constant annual rate of 2.0 percent for 25 years, at a
reducing rate over the next 25 years, and remain level thereafter.

Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

          Income: sources of income are payroll taxes, income taxes, investment income, and
           financial interchange transfers.

          Income excluding interesta: income, as defined above, excluding the investment income
           from assets of the trust fund.

          Expenditures: benefit payments and administrative expenses.

          Cashflow: either (1) income excluding interest or (2) expenditures, depending on the
           context, expressed in nominal dollars.

a
    References to interest income in this section may be considered as referring to total investment income including
    dividends and capital gains.


                                                         - 90 -
                                         UNAUDITED



      Net Cashflow: income excluding interest less expenditures, expressed in nominal
       dollars.

The Statement of Social Insurance and the required supplementary information below are
based on actuarial and economic assumptions used in the 2010 Section 502 Report extended
through calendar year 2084, the RRA, and the Railroad Retirement Tax Act. This information
includes:

   (1) actuarial present values of future estimated expenditures for and estimated income from,
       or on behalf of, current and future program participants;

   (2) estimated annual income excluding interest and expenditures in nominal dollars and as
       a percentage of taxable payroll;

   (3) the ratio of estimated annuitants to estimated full-time employees, showing the
       relationship between the program’s benefit recipients and taxpayers; and

   (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
       which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.




                                             - 91 -
                                        UNAUDITED


Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2010-2084 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads
during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income through 2026. By 2027, income
is greater than expenditures. This remains true throughout the remainder of the projection
period. Without investment income, however, annual expenditures are generally greater than
annual income although this is not true between 2030 and 2035. Reasons for this pattern
include participant demographics, the assumed drop in railroad employment, and the automatic
tier 2 tax rate adjustment mechanism. The combined balance of the NRRIT, RR Account, and
SSEB Account never becomes negative largely because (i) a sufficient balance exists at the
beginning of the projection period and (ii) tier 2 tax rates respond automatically to changing
account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase from 2011 through 2019 primarily due to the
anticipated retirement of a large percentage of the current workforce combined with the
projected decline in railroad employment. Except for the income from tier 1 payroll taxes, the
sources of income vary as a percentage of payroll.




                                            - 92 -
                                           UNAUDITED


Sensitivity Analysis – The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2010, and are based
on estimates of income and expenditures during the projection period 2010-2084.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the
intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2009 is equal to 220,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 43,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate
(0.5 percent for assumption I and 2.0 percent for assumption II) for 25 years, at a reducing rate
over the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 3.5 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment
assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under employment assumptions I and II, no cashflow problems occur throughout the entire
period. Under employment assumption III, the combined balance of the RR Account, the
NRRIT, and the SSEB Account becomes negative in 2033 and remains so until 2081. Table 1
shows the excess of assets and the present value of income over the present value of
expenditures for the three employment assumptions.


                                       Table 1
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                     Three Employment Assumptions, 2010-2084
                                     (in billions)

     Employment Assumption                     I               II             III

     Present Value                          $1.4             $1.0            $0.2

     Average Tier 2 tax ratea               16.3%            18.8%           21.6%
 a
  Average combined employer/employee tier 2 tax rate is calculated by dividing the
  present value of tier 2 taxes by the present value of tier 2 payroll.




                                                   - 93 -
                                         UNAUDITED




Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for assumptions I and II but goes negative in 2033 for assumption III and remains so until 2081.

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
the minimum in 2053 under employment assumption I but then increases again slightly in 2068
and remains level through 2084. The tax rate does not reach the minimum until 2071 under
employment assumption II. Under employment assumption III, the tax rate reaches the
maximum in 2026, remaining at that level through the remainder of the 75-year period.




                                             - 94 -
                                          UNAUDITED




The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT (and for years before 2002, the SSEB Account) to the total benefits and
administrative expenses paid from the RR Account and the NRRIT. Therefore, the tier 2 tax
rate will be affected by employment assumption. The tier 2 tax rate adjustment mechanism
promotes but does not guarantee solvency. The tier 1 tax rate does not vary by employment
assumption.

Investment return: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the investment return of 7.5 percent used for our
projections, we show the effect on the combined accounts of an investment return of 4 percent
and an investment return of 11 percent. Table 2 shows the excess of assets and the present
value of income over the present value of expenditures for the three investment return
assumptions. If the tier 2 tax rate were fixed, the actuarial surplus would increase with
increasing investment return. However, the tier 2 tax rate adjusts to changing account
balances, resulting in the highest average tax rate under the 4 percent scenario and the lowest
average tax rate under the 11 percent scenario. Under the 7.5 percent scenario, the tax rate
adjustment mechanism keeps the system in close actuarial balance. Under the 11 percent
scenario, the tax rate is limited to a minimum value. Under the 4 percent scenario, the tax rate
reaches a maximum value and then remains at that value longer than is needed, resulting in the
highest actuarial surplus.




                                              - 95 -
                                        UNAUDITED

The tier 2 tax rate remains at the maximum longer than is needed largely because of the
10-year average in the Average Account Benefits Ratio, as required by law. Use of the 10-year
averaging effectively sacrifices some responsiveness for the sake of stability and smoothness.


                                       Table 2
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                  Three Investment Return Assumptions, 2010-2084
                                     (in billions)

  Investment Return Assumption              4%            7.5%           11%


  Present Value                            $10.3           $1.0           $1.6

  Average Tier 2 tax rate                  21.0%          18.8%          16.1%




Chart 4a shows the combined account balance under the three investment return assumptions
for the projection period. At a 4 percent investment return, the account balance reaches its
lowest value in 2024, although it never becomes negative. After that it continues to increase.
With a 7.5 percent investment return, the account balance decreases through 2026 and
increases thereafter. An 11 percent investment return results in a combined balance that
increases throughout the projection period. Although the 4 percent scenario shows the lowest



                                             - 96 -
                                         UNAUDITED

account balance at the end of the projection period, the concurrent use of a 4 percent discount
rate results in the highest surplus on January 1, 2010.

Chart 4b shows the tier 2 tax rate under the same three investment return assumptions. With a
4 percent investment return, the maximum tier 2 tax rate applies from 2023 through 2045. With the
7.5 percent investment return, the maximum tax rate applies from 2030 through 2035, and the
minimum tax rate is paid starting in 2071. With an 11 percent investment return, the maximum tax
rate is never applicable, and the minimum tax rate is paid beginning in 2039. As mentioned above,
the tier 2 tax rate is determined based on the ratios of asset values to benefits and administrative
expenses, so it will be affected by investment return, but tier 1 tax rates will not.




Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per
full-time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2010. For assumptions II and III, the
ratio is highest in 2021 and 2036, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to around 1.7 by the end of the projection
period. The convergence in number of annuitants per employee at the end of the projection
period results primarily from level employment projected in the latter years under all three
employment assumptions.




                                             - 97 -
UNAUDITED




  - 98 -
        

        


                   
           


               
               

    
       
               
           


       
               
           

                 UNITED STATES RAILROAD RETIREMENT BOARD


                             OFFICE OF INSPECTOR GENERAL





To the Board Members:


The following report presents the results of the Office of Inspector General's (GIG)
audits of the financial statements of the Railroad Retirement Board (RRB) as of
and for the fiscal years ended September 30, 2010 and 2009.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the RRB as of
September 30,2010 and 2009; the related statements of net cost, changes in net
position, and budgetary resources for the years then ended; and the statements of
social insurance as of January 1,2010,2009,2008,2007, and 2006.

We did not audit the financial statements of the National Railroad Retirement
Investment Trust (NRRIT). The net assets of the NRRIT represent approximately
80% of the total assets reported by the RRB for fiscal years 2010 and 2009.
NRRIT assets represent approximately 94% and 95% of the reported railroad
retirement program's social insurance fund balance as of January 1, 2010 and
2009. Related changes in the net value of investments held by the NRRIT are
reported a~ a source of financing which contributed a net gain of $442 million
during FY 2010 and a net loss of approximately $2 billion during FY 2009.

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001, the
NRRIT retains the services of an independent auditor to opine on its financial
statements., With respect to the assets of the NRRIT as of September 30, 2010
and 2009; and January 1,2010,2009,2008,2007, and 2006, the financial
statements of the NRRIT were audited by other auditors whose reports have been
furnished to us, and our opinion, insofar as it relates to the amounts included for
the NRRIT, is based solely on the report of the other auditors.

In our opinion, the financial statements of the RRB referred to above, including the
accompanying notes, present fairly, in all material respects, in conformity with U.S.
generally accepted accoynting principles, the financial position of the RRB, its
consolidated net cost of operations and changes in net position, and combined
budgetary resources as of and for the fiscal years ended September 30, 2010, and
2009; and the financial condition of the Railroad Retirement program as of
January 1,2010, 2009, 2008, 2007, and 2006.

However, misstatements may nevertheless occur in other financial information
reported by the RRB and may not be detected as a result of internal control
deficiencies described later in this report.


844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
                                       - 100 -
Auditor's Report                                                               Page 2


Social Insurance

As described in the statement and related notes, the statement of social insurance
presents the actuarial present value of the future income to be received, and
expenditures to be paid to or on behalf of participants in the Railroad Retirement
program during a period sufficient to illustrate the program's long-term sustainability.
In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions
in the statement. However, because of the large number of factors that affect the
statement of social insurance and the fact that future events and circumstances
cannot be known with certainty, there will be differences between the estimates in
the statement of social insurance and the actual results, and those differences may
be material.

The RRB's statement of social insurance presents the fund balance of the
Railroad Retirement program and the related estimate of actuarial surplus which
is computed by adding the fund balance to the estimated excess (or shortfall) of
the present value of future income over the present value of future expenditures
for the 75 year projection period. These additional line items are presented to
ensure that a reader would not be misled about the financial condition of the
program. The program's current financing structure creates an inverse
relationship between income and program assets; thus, the financial condition of
the program cannot be understood without direct reference to the fund balance
and the related actuarial surplus or deficiency. This relationship is disclosed in
Note 15 to the financial statement.

Emphasis of Matters

NRRIT

Pursuant to the Railroad Retirement and Survivors'· Improvement Act of 2001, the,
NRRIT is authorized to invest railroad retirement assets in a diversified investment
portfolio. As of September 30, 2010, the reported value of the net assets of the
NRRIT was approximately $442 million higher than reported,at
September 30,2009. The RRB discusses its relationship with the NRRIT in
Note 2 and Note 5 to the financial statements, and describes the impact of
changes in the social insurance fund balance on actuarial projections in Note 15.

Financial Interchange

The RRB discloses transactions with related parties in Note 2 to the financial
statements. The RRB, Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as a
financial interchange. Under this arrangement, transfers-in from the Social
Security Administration's Old-Age and Survivors Insurance and Disability
Insurance trust funds and tra[lsfers-out to the Federal Health Insurance trust fund
represented approximately $4 billion (net), or about 350/0 of the financing sources



                                       - 101 -
Auditor's Report                                                                                 Page 3


reported on the RRB's statement of changes in net position for FY 2010 before
considering the change in the reported value of NRRIT net assets. For FY 2009,
financial interchange transfers of $4 billion (net) represented about 37% of the
financing sources reported before considering the reduction in the reported value
of NRRIT assets.

CONSIDERATION OF INTERNAL CONTROL

In planning and performing our audit, we considered the RRB's internal control
                                          1
over financial reporting and compliance. We did this to determine our procedures
for auditing the financial statements and to comply with OMB audit guidance, and
not to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance or on
management's assertion on internal control included in Management's Discussion
and Analysis.

With respect to previously reported control deficiencies, the RRB has made
progress strengthening its information security program but this effort is not yet
complete and remains an area of material weakness. 2 The agency has
corrected the previously cited material weakness over financial reporting by
demonstrating improved controls in this area. The previously reported material
weakness for non-integrated subsystems continues to exist because agency
efforts are not yet complete.

Our internal control work would not necessarily disclose all deficiencies in
internal control that might be material weaknesses or other significant
deficiencies. Although not considered to be material weaknesses or significant
deficiencies, we will report other matters involving internal control and its operation
to RRB management in a separate letter.

Material Weaknesses

Information Security

During FY 2010 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act of
2002 (FISMA).3 OIG auditors concluded that although the agency addressed the

1 The definition of internal control as it relates to the basic financial statements is presented in the
footnotes on page 5.
2A material weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity's financial statements will
not be prevented, or detected and corrected on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.

3"Fiscal Year 2010 Evaluation of Information Security at the Railroad Retirement Board," GIG Report
No. 11-01, November 5, 2010.




                                                - 102 -
Auditor's Report                                                            Page 4


significant deficiency in access controls, some weaknesses continue to exist.
However, weaknesses regarding the certification and accreditation process remain
unresolved. Although a more detailed review process is being performed by the
agency, changes in the agency's certification and accreditation control process are
not yet sufficient.

RRB managers are working to address this weakness.

Internal Control Over Non-Integrated Sub-Systems

The RRB's financial reporting control structure is not comprehensive with respect
to the reconciliation of the general ledger to non-integrated subsystems. The OIG
previously reported this issue as a result of its audits of the agency's financial
statements performed during FYs 2000,2001,2008 and 2009.

During the fourth quarter of FY 2010, the agency created an inventory of the
various non-integrated systems that support financial accounting. Although this
shows that progress is being made to address this material weakness, the agency
has not yet implemented a comprehensive reconciliation process with adequate
separation of duties.

RRB managers are working to address this weakness.

COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of the RRB's compliance with selected provisions of laws and
regulations for FY 2010 disclosed no instances of non-compliance that are
reportable under U.S. generally accepted government auditing standards or
OMB guidance. However, the objective of our audit was not to provide an
opinion on overall compliance with laws and regulations. Accordingly, 'we do not
express such an opinion.

CONSISTENCY OF OTHER INFORMATION

The RRB's Management Discussion and Analysis, required supplementary
information, and other accompanying information contain a wide range of data,
some of which are not directly related to the financial statements. We do not
express an opinion on this information. However, we compared this information
for consistency with the financial statements and discussed the methods of
measurement and presentation with RRB officials. On the basis of this limited
work, we found no material inconsistencies with the financial statements, U.S.
generally accepted accounting principles, or with OMS guidance.




                                      - 103 -
Auditor's Report	                                                                         Page 5


OBJECTIVES, SCOPE, AND METHODOLOGY

RRB management is responsible for (1) preparing the financial statements in
conformity with U.S. generally accepted accounting principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the Federal Managers' Financial Integrity Act
                                                                           4
(FMFIA) are met, and (3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the
financial statements are presented fairly, in all material respects, in conformity
with U.S. generally accepted accounting principles. We are also responsible for
(1) obtaining a sufficient understanding of internal control over financial reporting
and compliance to plan the audit, (2) testing compliance with selected provisions
of laws and regulations that have a direct and material effect on the financial
statements, and laws for which OMS audit guidance requires testing; and
(3) performing· limited procedures with respect to certain other information
appearing in the RRB's Performance and Accountability Report. In order to fulfill
these responsibilities, we:

    •	 examined, on a test basis, evidence supporting the amounts and

       disclosures in the proprietary and budgetary financial statements;

    •	 assessed the accounting principles used and significant estimates made
       by RRB management in preparing the proprietary and budgetary
       financial statements;
    •	 assessed the factors, data, assumptions and model used by RRB
       management to prepare the long-term actuarial projections presented in
       the statement of social insurance;
    •	 evaluated the overall presentation of the financial statements;
    •	 obtained an understanding of the entity and its operations, including its
       internal control related to financial reporting, compliance with laws and
       regulations (including execution of transactions in accordance with
       budget authority);
    •	 tested relevant internal controls over financial reporting and compliance,
       and evaluated the design and operating effectiveness of internal control;



41nternal Control as it relates to the financial statements is a process, affected by the agency's
management and other personnel, designed to provide reasonable assurance that the following
objectives are met: (1) Reliability of financial reporting - transactions are properly recorded,
processed, and summarized to permit the preparation of the Basic Statements in accordance with
generally accepted accounting principles, and assets are safeguarded against loss from
unauthorized acquisition, use, or disposition; and (2) Compliance with applicable laws.
regulations. and government-wide policies - transactions are executed in accordance with laws
governing the use of budget authority, government-wide policies, and laws identified by OMB, and
other laws and regulations that could have a direct and material effect on the Basic Statements.



                                             - 104 -
Auditor's Report	                                                              Page 6


   •	 considered the design of the process for evaluating and reporting on
      internal control and financial management systems under the FMFIA;
      and
   •	 performed tests of compliance with selected provisions of laws and
      regulations, including laws governing the use of budget authority, and
      other laws and regulations that could have a direct and material effect on
      the RRB's basic financial statements:
          o	 Anti-Deficiency Act, as amended;
          o	 provisions of the Railroad Retirement Act governing financing and
             the payment of benefits;
          o	 provisions of the Railroad Unemployment Insurance Act governing
             financing and the payment of benefits; and
          o	 provisions of the Social Security Act that provide for certification of
              benefits to the RRB for payment (42 U.S.C. § 405(i)).

We considered the material weaknesses identified above in determining the
nature, timing, and extent of our audit procedures on the 2010 financial
statements.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the FMFIA, such as controls relevant to preparing statistical
reports and ensuring efficient operations. We limited our internal control testing
to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected by our audit. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. We also caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the RRB.
We limited our tests of compliance to selected provisions of laws and regulations
that have a direct and material effect on the RRB's financial statements and
those required by OMB audit guidance that we deemed applicable to the RRB's
financial statements for the fiscal year ended September 30,2010. We caution
that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

The NRRIT was established pursuant to the Railroad Retirement and Survivors'
Improvement Act of 2001 (Public Law 107-90). Under that law, the NRRIT is not
a department, agency or instrumentality of the Government of the United States.
In addition, the law specifically exempts the NRRIT from compliance with Title
31, United States Code which governs the monetary and financial operations of
the Federal government. The law also provides that the NRRIT annually engage



                                       - 105 -
Auditor's Report                                                             Page 7


an independent, qualified public accountant to audit the financial statements of
the NRRIT. Accordingly, the DIG has not audited the books and records of the
NRRIT, nor had any input into the selection of the independent accountant
retained by the NRRIT, nor provided oversight to that firm in the execution of
their responsibilities. Our opinion on the RRB's financial statements, insofar as it
relates to the amounts included for the NRRIT, is based solely on the report of
the auditor retained by the NRRIT, and our assessments of internal control and
compliance do not extend to the operations of the NRRIT.

Except to the extent that the foregoing arrangement may have affected the
planning and execution of our audit, we performed our work in accordance with
U.S. generally accepted government auditing standards and OMB audit
guidance.

RRB MANAGEMENT'S COMMENTS

RRB management thanked the DIG audit staff for their close cooperative effort in

meeting this year's financial reporting deadline. With respect to the material

weaknesses described in this report, management cited their ongoing effort to

strengthen controls over information security and non-integrated subsystems and

their commitment to address weaknesses identified by the DIG.


The full text of management's response follows as an attachment to this report.

We did not perform audit procedures on the RRB's written response to the material

weaknesses and, accordingly, we express no opinion on the response.





Original signed by:


Martin J. Dickman

Inspector General

November 5, 2010, except for matters relating to

the fair value of the net assets of the NRRIT as of

September 30,2010, as to which the date is

November 15,2010.





                                     - 106 -
                                                                       Attachment
                                                                       Page 8
                UNITED	 STATES GOVERNMENT                                       FORM C-Il5f [1·821


                MEMORANDUM                                   RAILROAD RETIREMENT BOARD



                                                                   NOV 102010

TO	             Diana Kruel

                Assistant Inspector General for Audit


FROM	           Kenneth P. Boehne      Original Signed By:           

                Chief Financial Officer


SUBJECT:	       FY 2010 Financial Statement Audit - Auditor's Report;

                Re: Your memorandum dated November 5,2010



Myoffice, and those of the Board Members, have revivwed the Office of Inspector
General's draft report and have the following comments.

You reported material weaknesses in your draft report dealing with information
security and internal controls over non-integrat~d subsystems. The Railroad
Retirement Board continues to recognize that information security is a significant
challenge. We have devoted substantial effort and resources to correct weaknesses
in the agency's information security program. We will continue to do so in order
to address the weaknesses regarding the agency's certification and accreditation
process identified by the Office of Inspector General. Concerning the reported
weakness in internal controls over non-integrated subsystems, agency financial
managers and program managers have created aninveritory of the various non­
integrated systems that provide information to the agency's financial management
system. These same managers will continue to work together to identify and
implement a solution that provides for a comprehensive reconciliation process with
adequate separation of duties.

We again thank you and your staff for working closely and cooperatively with us
these past few months to help ensure that the RRB will be able to meet this year's
reporting de'adline of November 15, 2010.

cc:	   The Board
       Executive Committee




                                      - 107 -
PAGE INTENTIONALLY LEFT BLANK
OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK
                  


          



                      

              





- 111 -
              

   

          

                  





- 112 -
- 113 -
                              

                  

                      

              

                          







    - 114 -
                                                

                                            

                                    

                                        

              



Original Signed By:

                      

                  





                          - 115 -
                                   Management’s Comments


These are Management’s comments on the Management and Performance Challenges
identified by the Railroad Retirement Board (RRB) Inspector General.

Providing Oversight of Invested Assets of the Railroad Retirement Act Program

The Inspector General, in Management and Performance Challenges Facing the Railroad
Retirement Board, again expresses his concern that the Railroad Retirement and Survivors’
Improvement Act of 2001 does not provide for adequate Federal oversight of the investment
operations of the National Railroad Retirement Investment Trust (NRRIT). The Inspector
General also suggests that performance audits should be conducted with respect to the
NRRIT’s activities.

As the Inspector General notes, the Railroad Retirement and Survivors’ Improvement Act of
2001 created the NRRIT as a non-Federal entity with responsibility for investment of railroad
retirement trust funds. The Board of Trustees of the NRRIT is comprised of seven members:
three who represent railroad carriers, three who represent railroad labor, and an independent
member who is selected by the other six Trustees. The statute provides that these Trustees
“shall discharge their duties … with respect to the assets of the Trust solely in the interest of the
Railroad Retirement Board and through it, the participants and beneficiaries of the programs
funded under this Act….” The Act requires the NRRIT to engage an independent auditor to
conduct an annual audit of the NRRIT’s financial statements. The financial statements and the
auditor’s report are included in NRRIT’s annual management report, which is required to be
submitted to the Congress, with copies to the President, the Railroad Retirement Board, and the
Office of Management and Budget. Enforcement authority is delegated to the Railroad
Retirement Board to:

       bring a civil action –
       (i)     to enjoin any act or practice by the Trust, its Board of Trustees, or
               its employees or agents that violates any provision of this Act; or
       (ii)    to obtain any other appropriate relief to redress such violations, or to
               enforce any provisions of this Act.

The statute clearly delegates authority to audit to an independent public accountant, not to the
Railroad Retirement Board. The NRRIT has engaged Deloitte & Touche to conduct annual
audits, as well as an update of the annual audit to provide information for the Statement of
Social Insurance. The NRRIT has always met the statutory deadline for submission of the
management report to the Congress and other entities, and each such report has contained all
information called for by the statute.

The Inspector General suggests that the information provided in the Trust’s annual financial
statement and audit report is not sufficient for the Railroad Retirement Board to perform its
delegated enforcement responsibilities under the Act. The Board does not agree with the
Inspector General’s opinion in this regard, but also wishes to point out that the annual financial
statements and the audit report are not the only information available to the Board. Subsequent
to enactment of the legislation and creation of the NRRIT, the Railroad Retirement Board,
Department of the Treasury, Office of Management and Budget, and the NRRIT reached
agreement on a Memorandum of Understanding calling for the NRRIT to provide additional
financial information to the Railroad Retirement Board and other entities on a monthly basis.


                                               - 116 -
NRRIT information is incorporated in accounting records as appropriate and is disseminated
within the agency and to the Department of the Treasury. Moreover, the three-member Board
that heads the Railroad Retirement Board meets twice a year with the Trustees and key NRRIT
staff to get updates on NRRIT investment activities and performance. Finally, the agency’s
General Counsel meets with the NRRIT’s Chief Executive Officer/Chief Investment Officer and
Counsel to the Trust following each meeting of the Board of Trustees to discuss the agenda of
the meeting and other issues of interest.

With respect to the Inspector General’s suggestion that performance audits should be
conducted concerning the NRRIT’s operations, the Railroad Retirement Board was advised in
December 2009 by the Board of Trustees of the NRRIT that the Trust had just received the final
report prepared by Independent Fiduciary Services, Inc. concerning the results of an audit by
that firm of the NRRIT’s operational matters. The Railroad Retirement Board was provided a
copy of the final report as well as the NRRIT’s planned course of action on the
recommendations made in the report. The audit covered the following areas:

       Investment performance reporting;
       Due diligence procedures;
       Non-traditional investment practices;
       Trust and custody arrangements; and,
       Investment accounting and operations.

The Board takes its responsibilities under the Railroad Retirement and Survivors’ Improvement
Act very seriously and the agency believes that we have sufficient information available to us to
effectively carry out those responsibilities.

Disability Program Integrity

As the Inspector General noted, the Board directed the establishment of a Disability Working
Group. In its September 2010 report, the Disability Working Group identified opportunities to
strengthen program integrity in the disability program by building on existing processes and
developing new initiatives for the prevention and detection of disability fraud. The Board is in
the process of reviewing the findings and recommendations of the Disability Working Group to
determine how best to add value to the existing program integrity efforts.

Railroad Medicare Program Integrity

The RRB is authorized to contract with a carrier to process the Medicare Part B claims of its
annuitants. A recent Inspector General audit identified deficiencies in the files used to execute
the carrier’s post-payment review process and raised concerns about data compatibility
stemming from the Centers for Medicare and Medicaid Services’ (CMS) forthcoming initiative to
improve the pre-payment review process.

RRB management has been working with CMS to facilitate correction of the programming errors
that resulted in deficient files being sent to the RRB’s Medicare Part B carrier for use in the
post-payment review process. We expect that the files necessary to support re-performance of
that process will be available to RRB’s carrier in mid to late November. With respect to the
issue of data compatibility, we will work with our counterparts at CMS to meet that agency’s
system requirements within the timeframes they establish. We will continue to work with CMS




                                             - 117 -
to ensure that our systems adequately and timely support CMS’ initiatives in this area, including
any new initiatives for real-time analysis fraud prevention technology.

Information Technology Security

During fiscal year 2010, the OIG evaluated the RRB’s information security program pursuant to
the provisions of FISMA. OIG auditors concluded that substantial progress has been made in
the area of access controls and, while some improvement is still needed, access controls will no
longer be cited as a deficiency. They concluded, however, that insufficient evidence exists of
substantial progress in the improvement of the internal control environment regarding the
certification and accreditation process, which included risk assessments and test and evaluation
of security controls.

In fiscal year 2011, we will focus on RRB’s review process of contractor deliverables regarding
(1) certification and accreditation and (2) continuous monitoring activities related to the agency’s
general support system and three major applications. The review process needs to ensure the
contractor identified complete and accurate information, considered all baseline controls as part
of the security assessment, and incorporated all identified weaknesses in the Plan of Action and
Milestones (POA&M) for remedial action.

Financial Accounting and Reporting

RRB financial managers implemented enhanced controls over financial reporting during fiscal
years 2009 and 2010. On November 1, 2010, the OIG advised us that, during its audit of the
fiscal year 2010 financial statements, it found that while some control issues continue to exist in
this area, they no longer rise to the level of a material weakness. As a result, the OIG removed
this material weakness.

Internal Control Over Non-Integrated Subsystems

RRB financial managers worked with Executive Committee (EC) representatives to prepare an
inventory of non-integrated subsystems during fiscal year 2010. One new financial
reconciliation, dealing with Railroad Unemployment Insurance Act payments, was initiated in
July 2010. The Accounting staff intends to work with EC representatives to review the inventory
of non-integrated subsystems and determine whether any additional reconciliations should be
performed. It is anticipated that the remaining OIG recommendation regarding internal control
over non-integrated subsystems will be fully addressed by January 2011, and we will then ask
the OIG for closure of that recommendation.

Preventing and Detecting Improper Payments

Over the years, the agency has made concerted efforts to monitor and reduce improper
overpayments and underpayments; the results of those efforts are evident in the reduction of
the improper payment rates. Approximately 94 percent of payment errors result from changes
coming from outside the agency, such as changes in the beneficiary’s status which affects
entitlement or eligibility and changes in service and compensation due to work. Our agency’s
challenge is to obtain current and accurate information and process it as quickly as possible.
We will continue to devote significant resources to prevent or minimize these improper
payments. And, we will work with OMB to ensure that all requirements of the Improper
Payments Elimination and Recovery Act of 2010 applicable to our agency are implemented.



                                              - 118 -
                Improper Payments Information Act (IPIA) Reporting Details


I. Briefly describe the risk assessment(s), performed subsequent to completing the full
program inventory. List the risk-susceptible programs (i.e., programs that have a
significant risk of improper payments based on OMB guidance thresholds) identified
through risk assessments. Be sure to include the programs previously identified in the
former Section 57 of Circular A-11 (now located in Circular A-123, Appendix C). Please
highlight any changes to its risk assessment or its risk assessment results that occurred
since its last report.

The RRB administers two benefit payment programs: Retirement and Survivor Benefits
(referred to as RRA) and Railroad Unemployment Insurance Benefits (referred to as RUIA).
Both were designated as “high risk” under the Former Section 57 of Circular A-11. Therefore, in
previous reports, we have been measuring and reporting the level of improper payments for
both programs in our Performance and Accountability Reports.

In January 2009, the Office of Management and Budget granted relief from reporting the RUIA
program improper payments due to the consistently low level of error over several years.
Barring any unexpected changes to the program or the rate, the next RUIA program improper
payments report will be included in the RRB’s Fiscal Year 2012 Performance and Accountability
Report.

The agency used the process described below to calculate the amount of RRA improper
payments made in fiscal year 2009.

                   Results of Fiscal Year 2009 Improper Payment Review

                                                                              Action Plan or
                Improper Payment Amt.          Improper Payment Rate
 Program                                                                         Targets
                     >$10 million                      >2.5%
                                                                                Needed?
RRA                        Yes                             No                        No


II. Briefly describe the statistical sampling process conducted to estimate the improper
payment rate for each program identified. Please highlight any changes to its statistical
sampling process that have occurred since the last report in this section.

The agency has an established methodology for identifying improper payments in the RRA
benefit payment program. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards. Also included are projections of improper payments from audits and special
studies. This year, we have modified our approach to include estimates of manual work based
on pending referrals as of September 30, 2009. Using this revised approach, we are now
reporting estimates of a backlog of referrals resulting from changes in service and
compensation records which could not be handled through the automated system.




                                              - 119 -
III. Describe the Corrective Action Plans for:

a. Reducing the estimated rate and amount of improper payments for each type of root
cause of error. (e.g. Administrative and Documentation errors, Authentication and
Medical Necessity errors, and Verification and Local Administration errors). This
discussion must include the corrective action(s) most likely to significantly reduce future
improper payments due to each type of root cause of error. If efforts are ongoing, it is
appropriate to include that information in this section, and to highlight current efforts,
including key milestones.

The root causes of error in the RRA program are summarized according to OMB’s root causes
in the table below.

            Root Cause of Error              Estimated Rate           Estimated Amount
    Administrative and Documentation              3.8%                  $     2,798,490
    Authentication and Medical Necessity          2.4%                        1,758,265
    Verification and Local Administration        93.8%                       68,520,300
    Total                                         100%                      $73,077,055

Corrective Actions:

Administrative and Documentation: These errors result from improper handling by the
agency’s automated systems or its personnel. Planned corrective actions include:
 development of an enhanced automated retirement payment system to replace the current
   legacy system that processes Retirement Applications, planned for early calendar year
   2011,
 development of an interface between systems to ensure accurate use of military service in
   the calculation of benefits, tentatively scheduled for completion in 2011, and
 creation of a Medicare premium collection database which is targeted for completion in fiscal
   year 2011.

Authentication and Medical Necessity: Very few of the agency’s improper payments fall into
this category. There are no planned corrective/preventative actions.

Verification and Local Administration: These errors result from changes coming from
outside the agency, particularly changes in the beneficiary’s status which affect entitlement or
eligibility either temporarily or permanently, and changes in service and compensation typically
due to work. Our agency’s challenge is to obtain the information and process it as quickly as
possible.

The initiatives to minimize this specific group of improper payments are:

   A system called RESCUE (Recalculate for Service and Compensation Updated to EDMA)
    which evaluates employer-reported changes to employee service and compensation records
    and adjusts annuities, if needed.
       o The initial implementation of this process in fiscal year 2006 handled the evaluation
           of record changes posted in January 2006. In fiscal year 2007, the system evaluated
           adjustments posted prior to January 2006. This initiative identified specific RRA



                                             - 120 -
               improper underpayments and paid out additional benefits due. Therefore, this
               resolved many of the improper payments that have been included in previous years’
               estimates. However, there is a significant manual workload that resulted from this
               initiative. As of September 30, 2009, there were 14,860 of these referrals (12,018 for
               active cases and 2,842 for terminated cases) on hand. These backlogged cases are
               handled whenever any other work needs to be done on the case. RESCUE referrals
               are also processed using overtime funds as the RRB budget permits.
          o This system is being run several times a year so that annuity adjustments are made
               timely and properly for those that can be handled automatically. Those that cannot
               be handled automatically have resulted in significant manual workloads. These
               referrals are considered part of the current workload. As of September 30, 2009,
               there were 19,849.
          o The agency uses overtime funding in the short-term, and is hiring and training claims
               examiner staff who will eventually be able to handle these complex workloads. This
               is a long-term process which will take several years before we see a significant
               impact on these workloads.
     A manual project to resolve the 1,731 case backlog of inconsistencies related to the social
      security number on records of auxiliary beneficiaries (i.e. spouses, children, widows), which
      was completed in November 2009. The RRB now has an ongoing annual workload for this
      purpose. This allows the agency to match to the SSA earnings database to identify
      earnings and to match to files containing death information.
     SPEED (System Processing Excess Earnings Data), an automation initiative designed to
      process all post-entitlement annuity adjustments in both retirement and survivor cases that
      result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
      payments for earnings on a timely basis, which minimizes any underpayments or
      overpayments that may result from changes in earnings. This project involves several
      phases that will be completed over a number of years. Phases 1 through 4 are currently in
      production. Phase 5 is expected to remove regular and Last Person Employment (LPE)
      work deductions when multiple reports are entered for the employee, spouse, or divorced
      spouse annuitant. Current plans are to complete this phase in early calendar year 2011. In
      the meantime, improper payments may result due to the necessity to handle these cases
      manually.


b. Instructions for grant-making agencies. Not applicable to RRB.


IV. Program improper payment reporting.

a. The table below is required for each reporting agency.

                Improper Payment (IP) Reduction Outlook FY 2008 – FY 2013
                                        ($ in millions)

                 FY 08                        FY 09                          FY 10
                           FY 08    FY 08                 FY 09   FY 09                 FY 10   FY 10
    Program    $ Outlays                    $ Outlays                      $ Outlays
                           IP %      IP $                 IP %     IP $                 IP %     IP $
                (actual)                     (actual)                     (estimated)

    RRA
               $10,049.9   0.79     $79.0   $10,519.4     0.69    $73.1   $10,817.3     0.69    $75.1




                                                - 121 -
              FY 11                          FY 12                          FY 13
                         FY 11   FY 11                   FY 12   FY 12                 FY13   FY 13
 Program    $ Outlays                      $ Outlays                      $ Outlays
                         IP %     IP $                   IP %     IP $                 IP %    IP $
           (estimated)                    (estimated)                    (estimated)

 RRA
            $10,964.0    0.69     $76.2    $11,179.7     0.69    $77.7   $ 11,528.3    0.69   $80.1


   Note: The absolute value of the overpaid and underpaid dollars and the rates is shown—the figures
   are not netted.

   At the time this report was prepared, the latest actual data available was for fiscal year 2009
   (shown in bold in the chart). The estimates for fiscal year 2010 through 2013 are based on
   the December 2009 OMB budget review estimates.

b. Discuss your agency’s recovery of improper payments, if applicable. Include in your
   discussion the dollar amount of cumulative recoveries collected beginning with
   FY 2004.

   Despite all the agency’s best efforts to prevent improper payments, some will always occur,
   due to lack of timely information, etc. In overpayment situations, the agency is diligent in its
   recovery efforts. The RRB’s account receivable balance for the RRA program at the end of
   fiscal year 2009 was $48,489,434. This balance includes debts classified as currently not
   collectible. We estimate that approximately 78.5 percent of these receivables will be
   collected and that the remaining 21.5 percent will eventually be closed as uncollectible. The
   RRB’s collection program is in full compliance with the Debt Collection Improvement Act of
   1996. For the period of fiscal years 2004 through 2009, the RRB recovered $157,495,553 in
   RRA program receivables. Recoveries are made through offset of future benefits,
   reclamation from the financial institution of benefits erroneously paid after the death of a
   beneficiary, and direct payment from debtors. Fraudulent payments are referred to the OIG
   for prosecution through the Department of Justice. Delinquent accounts are referred to
   Treasury for cross-servicing and offset of Federal payments.


V. Recovery auditing reporting.

This does not apply to RRB’s benefit programs.


VI. Describe the steps the agency has taken and plans to take (including time line) to
ensure that agency managers (including the agency head) are held accountable for
reducing and recovering improper payments.

Paying benefits accurately and timely, and providing prudent stewardship over agency trust
funds are the agency’s two strategic goals. Agency managers have links to those goals in their
performance plans.




                                               - 122 -
VII. Agency information systems and other infrastructure.

     a. Describe whether the agency has the information systems and other
        infrastructure it needs to reduce improper payments to the levels the agency
        has targeted.

         In order to prevent and reduce the already low levels of improper payments the RRA
         program generates, information systems need to be developed or modified as
         described in the project initiatives discussed in section III.a above.

     b. If the agency does not have such systems and infrastructure, describe the
        resources the agency requested in its most recent budget submission to
        Congress to obtain the necessary information systems and infrastructure.

         Since fiscal year 2010, the agency has requested funding for the agency’s System
         Modernization effort. System Modernization is a multi-year effort to modernize the
         agency’s automation systems, both hardware and software. System Modernization,
         when complete, will contribute to achieving the agency’s target information technology
         architecture and meet its performance goals, including improved accuracy of benefit
         payments and stewardship of the trust funds. Modernization will help reduce
         redundancy, improve processing accuracy and speed, and transition our computing
         environment to more modern technology platform and methodologies.


VIII. Describe any statutory or regulatory barriers which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

None.


IX. Additional comments, if any, on overall agency efforts, specific programs, best
practices, or common challenges identified, as a result of IPIA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. However, continued loss of experienced staff and the long
lead time to hire and train staff to handle the complicated manual work generated as a result of
systems limitations presents an ongoing challenge to making further significant reductions in the
levels of improper RRA payments. The agency hopes to be able to maintain adequate staffing
so that it can continue this important effort.




                                             - 123 -
 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                          Unqualified
Restatement                                               No

     Material Weaknesses            Beginning         New          Resolved    Consolidated      Ending
                                     Balance                                                     Balance
Information Technology Security          1                                                         1
Financial Reporting                      1                            1
Non-Integrated Subsystems                1                                                         1

Total Material Weaknesses                3                                                         2


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

     Material Weaknesses          Beginning     New     Resolved     Consolidated   Reassessed    Ending
                                   Balance                                                        Balance

Information Technology Security      1                                                                 1
Financial Reporting                  1                      1

Non-Integrated Subsystems            1                                                                 1

Total Material Weaknesses            3                                                                 2


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




                                                 - 124 -
APPENDICES
PAGE INTENTIONALLY LEFT BLANK
                                   Appendices

Glossary of Acronyms and Abbreviations


A

AABR                       Average Account Benefits Ratio
ABR                        Account Benefits Ratio
ACSI                       American Customer Satisfaction Index
ARRA                       American Recovery and Reinvestment Act of 2009

B

BPD                        Bureau of the Public Debt

C

CGI                        Consultants to Government and Industry
CMS                        Centers for Medicare & Medicaid Services
CNC                        Currently Not Collectible

D

DBP Account                Dual Benefits Payments Account
DOL                        Department of Labor

E

EDMA                       Employment Data Maintenance
ERP                        Economic Recovery Payments
ERS                        Employer Reporting System

F

FACTS II                   Federal Agencies’ Centralized Trial-Balance System
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FISMA                      Federal Information Security Management Act
FMFIA                      Federal Managers’ Financial Integrity Act
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance

G

GPRA                       Government Performance and Results Act




                                         - 127 -
I

IPIA          Improper Payments Information Act
IRMAA         Income-Related Monthly Adjustment Amount
IRS           Internal Revenue Service
IT            Information Technology
IVR           Interactive Voice Response

L

LAN           Local Area Network
LPE           Last Person Employment

M

MCRC          Management Control Review Committee
MMA           Medicare Prescription Drug, Improvement and Modernization
              Act of 2003

N

NRRIT         National Railroad Retirement Investment Trust

O

OIG           Office of Inspector General
OMB           Office of Management and Budget
OPM           Office of Personnel Management

P

P&AR          Performance and Accountability Report
PII           Personally Identifiable Information
POA&M         Plan of Action and Milestones

R

RESCUE        Recalculate for Service and Compensation Updated to EDMA
RR            Railroad Retirement
RRA           Railroad Retirement Act
RR Account    Railroad Retirement Account
RRB           Railroad Retirement Board
RRSIA         Railroad Retirement and Survivors’ Improvement
              Act of 2001
RUI           Railroad Unemployment Insurance
RUIA          Railroad Unemployment Insurance Act
RUI Account   Railroad Unemployment Insurance Account

S

SFFAS         Statement of Federal Financial Accounting Standards
SI            Sickness Insurance
SPEED         System Processing Excess Earnings Data
SSA           Social Security Administration
SSEB          Social Security Equivalent Benefit




                          - 128 -
T

Treasury   Department of the Treasury
Trust      National Railroad Retirement Investment Trust

U

UI         Unemployment Insurance
USC        United States Code
USPS       United States Postal Service

V

VoIP       Voice over Internet Protocol

W

WHBAA      Worker, Homeownership and Business Assistance Act of 2009




                       - 129 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              V. M. Speakman, Jr.
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Director of Administration/Senior         Henry M. Valiulis
           Executive Officer
        General Counsel                           Steven A. Bartholow
        Chief Financial Officer                   Kenneth P. Boehne
        Director of Programs                      Dorothy A. Isherwood
        Chief Information Officer                 Terri S. Morgan
        Chief Actuary                             Frank J. Buzzi




                                      - 130 -
